<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL 
                               YEAR 2011

                              ----------                              


                       WEDNESDAY, MARCH 24, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:32 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin and Collins.

                     OFFICE OF PERSONNEL MANAGEMENT

STATEMENT OF HON. JOHN BERRY, DIRECTOR

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Good afternoon. I am pleased to convene 
this hearing before the Senate Appropriations Subcommittee on 
Financial Services and General Government.
    Our focus is on fiscal year 2011 budget request of the 
Office of Personnel Management (OPM). OPM has not appeared 
before our subcommittee since 1997. So we have been waiting a 
long time to see you.
    I welcome my ranking member, Senator Susan Collins of 
Maine.
    The Office of Personnel Management serves as the principal 
adviser to the President on personnel management issues for the 
country's 2 million Federal civilian employees. It designs, 
develops, and oversees compliance with workforce policies and 
sets the guidance in areas of recruiting, selection, 
development, and compensation. To facilitate the Federal 
employment application process at a single location, OPM 
manages the USAJOBS Web site, which: posts 30,000 job vacancies 
a day; maintains 15.4 million resumes on file; and sends more 
than 500,000 e-mails daily to job seekers.
    OPM manages the world's largest single employer-sponsored 
health insurance plan with 8 million insured individuals, which 
also insures Members of Congress. The agency also administers 
retirement benefits for the Federal Government with more than 
2.5 million retirees.
    In addition, OPM conducts 90 percent of Federal background 
investigations each year and provides observers to monitor the 
election process as assigned by the Attorney General.
    OPM's newly unveiled strategic plan presents goals that 
will help prepare our Federal civil service for the 21st 
century.
    OPM's priority, and one I hope is shared by every Federal 
agency, is to recruit and retain the best and the brightest. 
Our Nation's civil servants are called on to defend our Nation, 
restore confidence in our financial system, administer a 
historical economic recovery effort, ensure adequate healthcare 
for veterans and others, and search for cures to the most 
vexing diseases. So we depend on these men and women who are 
dedicating their lives to public service.
    I am pleased to note that the 15.4 million resumes I 
mentioned OPM has on file are up from 1.9 million just a few 
years ago. With the surge of interest in public service, it is 
important that appropriate OPM policies and procedures be 
reformed to attract the best candidates.
    For fiscal year 2011, OPM is requesting $240 million in 
discretionary funds, the same as the enacted amount for fiscal 
year 2010, of which $95.7 million is for basic operating 
expenses. They are requesting an additional 40 full-time 
equivalents (FTEs) in the area of retirement processing.
    Mr. Berry, since you assumed the directorship last April, 
you have undertaken changes and improvements in hiring, 
including veterans hiring. And I know that disability hiring 
policy changes are a high priority for you.
    In addition, you have overseen new efforts in the area of 
wellness with funding we provided last year, which we will talk 
to you about. I know you intend to recommend changes to the 
Federal pay system, increasing telework eligibility, improving 
the security clearance process, and getting the retirement 
system modernization project on track.
    According to an article from a recent Government Executive 
magazine--whose cover you graced--with the title ``High 
Hopes,'' you have been referred to as a ``change agent,'' ``the 
quintessential Energizer bunny,'' and ``shot out of a cannon.'' 
Given what you hope to accomplish during your tenure, that is 
good because it looks like you have your work cut out for you.
    I would like to turn now to Senator Susan Collins, the 
ranking member.

                   STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Director Berry, welcome. It is good to see you before us 
here today.
    I appreciate your leadership at OPM and your efforts to 
fulfill the agency's mission to recruit, retain, and honor a 
world-class Federal workforce to serve the American people.
    I have always been a strong advocate for our Federal 
workforce. Because of the good work of our Federal employees, 
the United States Government is able to protect our Nation and 
provide crucial services to our citizens each and every day. 
Without their dedication, this vital work could not be done, 
and their commitment to public service makes for a stronger 
America.
    Many Federal employees place their very lives at risk on a 
daily basis. They knowingly put themselves in harm's way. The 
very nature of their work--whether it is military personnel, as 
Federal law enforcement or intelligence officers, or in other 
dangerous callings--puts them on the front lines of an often 
challenging or even life-threatening missions. But as the 
recent attack on the building in Austin, Texas, and other past 
assaults directed at Federal buildings and personnel have 
demonstrated, Federal employees can become the target of 
terrorists and criminals.
    Over the next decade, the Federal Government is facing a 
retirement wave, and with it, the loss of leadership and 
institutional knowledge at all levels. On average, retirements 
from the Federal workforce have exceeded 50,000 a year for a 
decade. Those numbers will certainly rise in the near future.
    The Office of Personnel Management calculates that 60 
percent of the current Federal workforce will be eligible to 
retire during the coming years. Federal agencies, which must 
already hire more than one-quarter of 1 million new employees 
each year, will need to work hard to replace these retirees, as 
the private sector and State and local governments will be 
competing for the same qualified applicants.
    To meet this challenge, agencies must use the recruitment 
and retention tools they already have, such as student loan 
repayment, recruitment and retention bonuses, and the ability 
to rehire Federal annuitants to fill critical needs. That has 
been a particular concern of mine. Last year I authored a bill 
to allow just that.
    OPM also needs to develop an effective and fair pay-for-
performance system that rewards the very best Federal 
employees.
    Director Berry, you have some very significant 
responsibilities that you work to accomplish those goals. And 
given fiscal constraints, I will be interested to hear how you 
will ensure that OPM will provide employees, agencies, and 
retirees with the important service they need but, most of all, 
ensure that the public has the qualified workforce we all need.
    So, Mr. Chairman, I look forward to working with you on 
this issue.
    Senator Durbin. Thanks a lot.
    Director Berry has quite a background, worked as 
legislative director for Congressman Steny Hoyer for 10 years, 
Assistant Secretary of Treasury, and the Interior Department's 
Director of both the National Fish and Wildlife Foundation and 
the National Zoo, which means he will be comfortable here in 
Congress.
    We will ask questions about the panda later.
    I now invite you to present your testimony, and your 
written testimony will be part of the record.
    Director Berry.

                  SUMMARY STATEMENT OF HON. JOHN BERRY

    Mr. Berry. Chairman Durbin and Senator Collins, thank you 
so much for this opportunity to appear before you today.
    I also want to personally thank both of you for your 
incredible leadership over so many years for our Federal 
employees and for retirees. On behalf of all of them, let me 
just say thank you. I know that if they could be here today, 
they would want to express thanks for your constant and 
stalwart leadership.
    With your indulgence, I would also like to introduce my 
Deputy Director, Christine Griffin, who is with me today. Mr. 
Chairman, as you mentioned in your opening statement there are 
concerns with both diversity and people with disabilities. 
Christine is one of the highest-ranking people in the Federal 
Government with a disability, and she is doing a phenomenal 
job. As I tell people, she is not really disabled, she is 
abled-squared. She is amazing and could do anything plus, and 
it is just an honor to be with her.
    I appreciate the opportunity to appear before you to defend 
the President's budget request for the Office of Personnel 
Management for fiscal year 2011. I know that I am preaching to 
the choir, but I can't overstate the importance of our mission 
to recruit, retain, and honor a world-class workforce to serve 
America. We are developing plans to achieve these goals, and I 
look forward to sharing some of those details with you today.
    For fiscal year 2011, OPM has requested $240 million in 
discretionary resources. With this money, we will serve the 
taxpayers by establishing, implementing, and overseeing all 
Federal human resource policies, completing background security 
investigations for over 90 percent of the Federal agencies, 
ensuring compliance with merit system principles, and 
administering of benefits for over 2 million Federal employees, 
2.5 million retirees, and their families, totaling over 8 
million lives.
    Even as we innovate and try to do more, this request stays 
level with the funds appropriated to OPM in fiscal year 2010.
    The President has asked me to make Government ``cool'' 
again. And so, we have developed several initiatives to make 
the Federal Government the model employer for the 21st century. 
Both of you are supporting many of these initiatives, letting 
job seekers know that the Federal Government is already a great 
employer with the best workforce in the Nation.
    In the past year, we have worked hard to expand the 
recruitment and hiring of veterans throughout the Government. 
Through an Executive order, the President established the 
Veterans Employment Initiative, creating a partnership between 
OPM, Departments of Labor, Veterans Affairs, and Defense.
    OPM is requesting $2.4 million, an increase of $800,000 
from fiscal year 2010, for this initiative in 2011. We plan to 
use those resources to increase our support and access for 
veterans seeking employment with the Federal Government. With 
your leadership, we have also provided benefits to support our 
soldiers and their families.
    I am particularly proud of our efforts to create a new 
special hiring authority for agencies that allow them to hire 
the spouses of members of our armed forces, who, as you know, 
have to move on a regular basis burdening them with a unique 
disadvantage. Consequently, we are trying to help them gain 
access to Federal employment not in violation of our veterans 
hiring program, but rather in addition to it.
    OPM also issued guidance in December to expand the paid 
leave benefits of members of the National Guard and reservists 
to help their families when they are called to active duty. Mr. 
Chairman, I want to specifically thank you for your leadership. 
This essentially enacts the legislation that you personally 
introduced, and for the first time ever, employees from the 
civil service sector who serve in the Reserve aren't 
disadvantaged by having their pay cut. This legislation has 
allowed us to restore their pay and maintain that pay while 
they are serving in the military. So God bless you and thank 
you for your leadership. We have worked to implement this 
legislation so that these reservists are not penalized in any 
way with regard to their pay.
    Another initiative is our effort to work with agencies to 
streamline the Federal hiring process. We are in the final 
clearance process with the Office of Management and Budget now 
and are ready, once we finish the agency clearance process, to 
send to the President a major hiring reform proposal that will 
essentially bring the Federal Government into the 21st century, 
or I should say the 20th century, where we will just start 
using resumes like everybody else.
    I think that if we do nothing else, this will be a landmark 
shift that will allow us to greatly benefit from progress that 
has been made long ago in the private sector.
    We requested $4 million for the next year to build 
additional and improved assessments that will develop more 
shared, registered, and enhanced Government-wide recruitment, 
and we can talk about that more in the questions. We are 
reforming the Federal security clearance process and are 
seeking your authority to meet those demands by increasing our 
Investigative Services Division by an additional 160 employees.
    In addition, we are taking a measured approach to updating 
our retirement systems and will be focused on improving overall 
electronic data collection. We must ensure that benefits are 
processed quickly and accurately and that our reform measures 
are deliberate and don't waste any more of the taxpayers' 
money.
    I know you all have been very diligent in overseeing this 
throughout the years. There have been multiple failures. We 
want to make sure that we can guarantee success with regard to 
any steps we take on this issue.
    In fiscal year 2011, OPM has requested $1.5 million to 
develop a better calculator for our retirement processing. This 
will allow our caseworkers to process claims more expeditiously 
and to meet current needs. Basically, right now we don't have 
an automated system. As you know, RSM was disbanded and that 
effort closed down. We had started to actually decrease our 
staff under the expectation there was going to be a new system.
    We are not going to have that system. Consequently, we do 
need to increase some staff. I am asking for 40 more employees 
so that we can just keep pace with the growth in demand that we 
are seeing. We are receiving, just this year, from the Postal 
Service alone an additional 18,000 retirements that we will 
have to process.
    We are looking for additional resources to conduct the 
employee viewpoint survey on an annual basis rather than every 
other year. We believe that this can be a very effective 
management tool.
    For the first time ever--and this really surprised me when 
I got there. We should have the best health database in the 
country. We have the largest single plan, covering 8 to 9 
million lives and yet we have never collected any data from it. 
And so, we miss, quite frankly, enormous opportunities for 
improving cost efficiencies, evaluating which programs are 
working better, and determining what the needs of our current 
population are.
    We want to make sure we can do that well. Thus, we are 
asking you for the necessary resources. It is a substantial 
investment, but it will allow us to begin collecting data for 
the first time ever about our employees' health benefit 
program, not at an individual level, but at the level where we 
can learn where our weaknesses are and where there are possible 
cost savings that could help us control costs in the future.
    These priorities and the priorities in our budget reflect 
the strategic goals that you have discussed in our strategic 
plan: to hire the best, respect the workforce, expect the best 
of our workforce, and honor their service. If we want enhanced 
performance and superior results from our Federal Government, 
we must invest in our employees and attract, hire, and retain 
the best workforce.
    To do this we must give our people the tools that they need 
to succeed and the incentive to perform at their maximum 
potential. We must assure employees that their services are and 
will continue to be respected and honored. I thank you on 
behalf of all Federal employees and retirees for both of your 
roles in doing that throughout your careers.

                           PREPARED STATEMENT

    Thank you for this opportunity to be with you today, and I 
look forward to answering any questions that you might have.
    [The statement follows:]
                    Prepared Statement of John Berry
    Chairman Durbin, Ranking Member Collins, and Members of the 
Subcommittee: As Director of the Office of Personnel Management, I 
appreciate the opportunity to testify before you today on the 
President's fiscal year 2011 budget request for the Office of Personnel 
Management (OPM). This budget will help us meet our responsibilities 
for establishing, implementing, and overseeing the Federal Government's 
human resources policies, background security investigations, merit 
system compliance, and administration of a broad range of benefits for 
the 2 million strong Federal civilian workforce, 2.5 million retirees, 
their families and survivors. I look forward to sharing with you the 
Administration's vision to recruit, retain, and honor a world-class 
workforce to serve America.
    Included in the fiscal year 2011 budget request are my strategic 
goals for the agency: Hire the Best, Respect the Workforce, Expect the 
Best, and Honor Service. These guiding principles have framed my 
initiatives of the past year and will continue to guide our activities 
and priorities in the next fiscal year.
    The President has asked me to make Government ``cool'' again, and 
to that end, we have several initiatives to reinforce the Federal 
Government to be the best workplace with the best workforce in the 
Nation. In the past year, with this subcommittee and Congress' support, 
we have worked hard to expand the recruitment and hiring of veterans 
throughout the Government; provide benefits to support the war fighter 
and his or her family; foster collaboration between labor and 
management in order to improve delivery of Government services; reform 
the Federal security clearance process, and propose initiatives to 
streamline the Federal hiring process. However, many challenges still 
remain. Nonetheless, OPM is well-prepared to meet these challenges, and 
the priorities outlined in this budget request are critical toward the 
success of these efforts.
                    high priority performance goals
    The following High Priority Performance goals are measurable 
commitments to the American people. They represent high priorities for 
both the Administration and the Office of Personnel Management and are 
expected to achieve significant results over the next 12 to 24 months. 
Each of the four goals is related to OPM's major performance 
improvement initiatives reflected in our budget. The High Priority 
Performance Goals include:
    Hiring Reform.--80 percent of Departments and major agencies will 
meet agreed upon targeted improvements to: Improve hiring manager 
satisfaction with applicant quality, improve applicant satisfaction, 
and reduce the time it takes to hire.
    Telework.--Increase by 50 percent the number of eligible Federal 
employees who telework by fiscal year 2011, increase by 50 percent the 
number of eligible Federal employees who telework over the fiscal year 
2009 baseline of 102,900.
    Security Clearance Reform.--Maintain or exceed OPM-related goals of 
the Intelligence Reform and Terrorism Prevention Act of 2004 and 
provide the OPM deliverables necessary to ensure that security 
clearance reforms are substantially operational across the Federal 
government by the end of CY 2010.
    Retirement Claims Processing.--Reduce the number of retirement 
records OPM receives that are incomplete and require development to 
less than 38 percent by the end of fiscal year 2010, 35 percent by the 
end of fiscal year 2011, and 30 percent by the end of fiscal year 2012.
    Wellness.--By the end of 2011, every agency has established and 
begun to implement a plan for a comprehensive health and wellness 
program which will achieve a 75 percent participation rate.
                           opm reorganization
    Shortly after becoming OPM Director in April 2009, I tasked the 
agency's senior leadership with developing a simplified model for 
restructuring the agency's executive offices and program divisions. The 
agency and its employee unions were partners throughout this process 
with a shared commitment to ensure employees are treated fairly, and to 
ultimately make OPM a better and more effective agency.
    The foremost reason for reorganizing OPM was to enable our 
customers, as well as OPM employees, to see in clear, plain English, 
the functions that we perform and the organizations responsible for 
implementing them. The five main functional organizations within OPM 
now are:
  --Employee Services, which provides policy direction and leadership 
        in designing, developing and promulgating Government-wide human 
        resources systems and programs;
  --Retirement and Benefits, which administers retirement, health, and 
        life insurance benefit programs for Federal employees, 
        retirees, their families and survivors;
  --Merit System Audit and Compliance, which ensures that Federal 
        agency human resources programs are effective and meet merit 
        system principles and related civil service requirements;
  --Federal Investigative Services, which ensures the Federal 
        Government has a suitable workforce that protects National 
        Security and is worthy of Public Trust; and
  --Human Resources Solutions, which provides effective human resources 
        solutions to assist Federal agencies in achieving their 
        missions.
    There are three newly created offices that I believe will help 
improve the agency's operations. First, I created an independent 
Ombudsman that will address issues raised by OPM employees and some 
customers of OPM. I have also created an Internal Oversight and 
Compliance Office that will undertake reviews and assessments of OPM 
operations, as well as assist program offices with responses to and 
follow up on audits conducted by the OPM Inspector General and 
Government Accountability Office. Through these offices we will have an 
internal check on OPM's operations that will allow us to better 
identify and improve problem areas.
    Also, I created an Office of Planning and Policy Analysis. Included 
in the OPM budget request is $7 million to start a data warehouse to 
analyze the claims experience of participants in the Federal Employees 
Health Benefits Program (FEHBP). Through this effort we hope to 
identify trends in employee health issues and potentially drive down 
costs through a better understanding of the Federal employee and 
retiree population's most common healthcare needs.
    Under this reorganization, OPM is more streamlined. Our customers--
both internal and external--are better able to understand the services 
and products that we provide. The execution of the reorganization has 
also made OPM more effective in making the Federal Government the model 
employer for the 21st century through successful achievement of 
critical priorities.
                    fiscal year 2011 budget request
    The budget request presented to you today continues the path we 
began to chart last year in an effort to bring civil service into a new 
era. For fiscal year 2011, OPM is requesting $240,071,000 in 
discretionary appropriations, the same as enacted for fiscal year 2010. 
The total includes appropriations from general funds as well as 
limitations on transfers from the earned benefit Civil Service 
Retirement and Disability Fund, Federal Employees Health Benefits Fund, 
and the Federal Employees Group Life Insurance Fund, all of which are 
under OPM's management.
    For basic operating expenses of the agency, our request includes 
$95,770,000 in general funds for Office of Personnel Management 
Salaries and Expenses, $22,564,000 of general funds and trust fund 
transfers for Office of the Inspector General Salaries and Expenses. 
Also, we are requesting a total of $121,737,000 in transfers from the 
Trust Funds for the administration of the civil service retirement and 
insurance programs. This funding will provide the resources necessary 
to aid in carrying out several major initiatives.
Hiring Reform
    The Administration believes that reforming the Federal hiring 
process is an urgent priority to attract the best and brightest talent 
into the workforce. The current hiring process is cumbersome and slow, 
frustrating managers and discouraging many talented individuals from 
considering Federal jobs and opportunities. In order to address this 
problem, OPM's fiscal year 2011 budget requests $4,000,000 in order to 
promote innovative and coordinated approaches to help agencies 
streamline their end-to-end hiring process. This synchronization will 
better enable agencies to recruit and hire qualified students, mid-
career professionals, and retirees. As part of the Administration's 
effort to create a more positive experience for Federal job applicants, 
OPM will continue efforts to overhaul the USAJOBS website. The effort 
will build on improvements that have already been made to make the site 
more user-friendly.
    OPM is also committed to increasing employment outreach to 
veterans, in accordance with President Obama's Executive Order, 
``Employment of Veterans in the Federal Government'' signed on November 
9, 2009. This order established the Veterans Employment Initiative, 
with the goal of transforming the Federal Government into a model of 
veterans' employment. OPM, in collaboration with the Departments of 
Defense, Labor and Veterans Affairs, is leading the development and 
implementation of a Government-wide Veterans Recruitment and Employment 
Strategic Plan to address barriers to entry for Veterans and 
transitioning service members pursuing careers in the Federal civil 
service. We are requesting $2,400,000 in fiscal year 2011 to advance 
this effort.
    Finally, this year OPM launched a Federal Diversity Office to make 
creation of a diverse workforce a greater priority in the Government. 
The Diversity Office is looking at the development of a Government-wide 
diversity strategy to support Federal agencies in improving outreach to 
and hiring of diverse groups of candidates. In fiscal year 2011, budget 
resources will be used to fully staff the Diversity Office and deploy 
new policies, processes and procedures for improving diversity and 
promoting inclusion across the Federal Government.
Wellness and Work-Life
    Availability of health, wellness, and work-life options for Federal 
employees is a critical tool for improving the ability of the 
Government to recruit and retain a high-performing workforce. In 2010, 
OPM received an appropriation of $2,654,000 to develop and operate a 
comprehensive worksite wellness pilot program for the downtown 
Washington campus including GSA, Interior, and OPM. The development of 
Government-wide health and wellness policies and programs to provide 
employees with a meaningful balance of work and life will continue to 
be a top priority at OPM in fiscal year 2011.
    Telework is another essential part of OPM's overall effort to 
improve work-life flexibilities for Federal employees. Increased use of 
telework in Federal offices across the country, particularly in major 
metropolitan areas with large concentrations of employees, would enable 
the uninterrupted delivery of Government services if employees were 
instructed to work from home due to extreme weather conditions, natural 
disasters, or other threats to health, including concerns regarding the 
spread of influenza. In fiscal year 2010 and 2011, OPM will continue 
its initiative on telework and provide support to agencies, managers, 
and employees about how to effectively implement telework programs.
Employee Viewpoint Survey
    Since 2002, OPM has conducted a biennial survey of Federal 
employees to assist Congress and OPM in determining the overall 
direction and needed changes for future HR policy. The survey is also a 
valuable tool for agencies to improve employee engagement and 
satisfaction as well as to address areas in need of improvement 
identified in the survey. Beginning this year, OPM will be conducting 
surveys annually and our budget request includes $2,500,000 for this 
effort in fiscal year 2011. The improved annual surveys will provide 
the data necessary to chart the course for making the Federal workplace 
a model for the nation.
Security Clearance Reform
    In 2004, Congress passed the Intelligence Reform and Terrorism 
Prevention Act of 2004 (IRPTA) which included provisions to address 
ongoing concerns regarding the timeliness and quality of personnel 
background investigations and employment suitability services. Since 
the enactment of IRPTA, OPM has significantly shortened the amount of 
time needed to complete initial clearance investigations and has 
eliminated the backlog of pending background investigation cases. In 
fiscal year 2011, continued efforts will ensure Federal customer 
agencies have the information they need to make timely decisions on the 
credibility and suitability of Federal employees, contractors, and 
military members.
    OPM conducts investigations for Federal agencies on a reimbursable 
basis through the Revolving Fund. The fiscal year 2011 budget includes 
an estimated $970,127,000 in new budget authority for Federal 
Investigative Services. This funding will be used to continue the 
transformation effort underway for the core FIS technology systems; to 
continue making improvements to security questionnaires used to collect 
investigative information; for implementation of a training program to 
standardize the investigative and suitability adjudicative process for 
all background investigations; and to cover fiscal year 2011 core FIS 
operational costs necessary to produce a quality and timely background 
investigation.
Retirement Systems Modernization
    OPM has initiated the Retirement Systems Modernization (RSM) 
program to modernize and automate retirement processes to ensure 
Federal retirees and annuitants are paid accurately, timely, and 
receive high-quality customer service. The Federal Government's 
retirement systems face significant challenges and are at high risk of 
failure due to technology gaps. These challenges have been identified 
in numerous OPM and GAO reports, and congressional staff members have 
been briefed on the ongoing response to these challenges. Because of 
the strategic importance of this issue, I have asked OPM's Deputy 
Director, Christine Griffin, to take the lead on RSM and make this her 
top priority. Our budget requests $1,500,000 to stabilize the 
retirement systems in fiscal year 2011.
    During this fiscal year, our primary focus for modernization 
efforts is to lay the foundation for upgrading the retirement 
calculator, and to transition from a paper-based operation to an 
automated retirement process. OPM is also focused on implementation of 
an online retirement application tool that will utilize data gathered 
through the Enterprise Human Resources Integration (EHRI) program, 
allowing us to gather initial retirement information electronically for 
the first time. This capability will help improve the accuracy of 
retirement calculations by eliminating the potential for manual data 
entry errors and permitting real-time validation of the data provided. 
These initiatives will help to ensure that OPM and agency benefits 
officers have access to information necessary to perform their duties 
of processing claims and providing customer service to employees and 
annuitants. However, enhanced efficiencies will not happen overnight. 
The transition will require incremental and deliberate change in order 
to ensure that past mistakes do not occur again, and that taxpayer 
dollars are not wasted on an ineffective effort. In the interim, OPM 
must increase staffing levels in order to fulfill its responsibility to 
process its anticipated workload in a timely manner.
    For fiscal year 2011, we are requesting 40 FTE and an additional 
$2,800,000 to increase retirement claims processing staffing levels. 
The 40 FTE will permit OPM to process an additional 24,000 claims and 
reduce claims processing time from 45 days to 40 days in fiscal year 
2011. In 2012, as staff is fully trained and seasoned, they will be 
able to process an additional 32,000 claims. The increase in FTE will 
assist in reducing the claims processing times to 38 days.
Acquisition Improvement
    Finally, the Administration is seeking to strengthen the 
acquisition process Government-wide. As a result, they requested a 
general provision that provides for $670,210 to increase OPM's 
acquisition workforce in order to improve contract oversight. OPM's 
Contracting Group has assumed a dramatic increase in contracting 
responsibilities over the past several years as a result of the 
increased scope of OPM's Government-wide support functions. OPM will 
use these requested funds to recruit, hire, and train five additional 
Contracting Officers, plus one additional Contracting Officer to 
increase staff devoted to small and disadvantaged business utilization.
    The agenda I have presented to you reflects a commitment toward a 
new day for civil service. If superior results are what we want from 
our Federal Government, then we must attract, hire and retain a 
talented workforce. We must give them the tools that they need to 
succeed, and the incentive to perform to their maximum potential, 
including our assurance that their services are and will continue to be 
respected and honored.
    Mr. Chairman, this concludes my formal testimony on the Office of 
Personnel Management's fiscal year 2011 budget request. I look forward 
to addressing any questions or concerns that you and the Members of the 
Subcommittee may have.
    Thank you.

                NEW ADMINISTRATION WELLNESS INITIATIVES

    Senator Durbin. So, Director Berry, the President asked us 
to give you $5 million for wellness, for pilot programs to deal 
with smoking cessation, disease management, and the like. Tell 
me how that is going.
    Mr. Berry. Mr. Chairman, the President's budget for fiscal 
year 2011 has actually consolidated these funds in the Health 
and Human Services (HHS) budget. And so, you will see a 
decreased request from that in the 2011 budget. You were very 
generous in allowing us to stand this up this year, and so the 
first, we are looking at creating demonstration projects where 
we can promote wellness in the workplace for Federal employees.
    The first one that we are setting up is in our own 
headquarters, which will also serve our little campus. Right 
across the street from us is the General Services 
Administration (GSA) and the Department of the Interior. The 
three of us are going to share a new health unit.
    Thanks to your support for this fiscal year, we have just 
issued a request for proposals from the health carriers that 
will come in and provide complete screening--free of charge--
for employees at the workplace, during work hours on a 
comprehensive basis, so that people can get their blood sugar 
and their cholesterol levels checked and also receive pre-
cancer screenings.
    Our belief is that this program is going to produce 
enormous savings. Companies that have done this in the private 
sector have produced productivity increases of 40 to 50 percent 
in the first couple of years alone.
    Senator Durbin. Did you consult with those companies when 
you were thinking about how to approach this?
    Mr. Berry. Absolutely, and a number of our staff have been 
going around the country and meeting with some of the more 
innovative companies that do this in the workplace well. And 
so, I am very excited by this.
    We just finished the renovation of our health unit. If you 
are ever down in our neighborhood, we welcome you to stop in 
and see it. It is now once again a place that you would not 
mind getting healthcare. I have to tell you that when I arrived 
at OPM, I would not have had a band-aid put on in our health 
unit. But we have made extreme advances in this.
    We are going to be doing other demonstration projects. In 
addition to the one in the District of Columbia, there will be 
others conducted around the country. We are going to try to 
select units in the Midwest and on the west coast so that we 
can get a good sample and bring you back strong data as to the 
impact that this will make in the Federal employee community.

   NURSING SHORTAGE AND INTERGOVERNMENTAL PERSONNEL MOBILITY PROGRAM

    Senator Durbin. I am going to give you a little bit of a 
challenge here on a different issue, and it relates to a 
national problem, which I think the Federal Government can help 
to address.
    We anticipate a nursing shortage in America that will grow 
to 260,000 registered nurses, which we will need and not have, 
by the year 2025, twice as large as this country has seen since 
the 1960s, reflects the baby boomers and more healthcare and 
more primary care and the critical role that nurses play.
    And so, when I looked at this nursing shortage in my State 
and across the country, it turned out that one of the major 
reasons was the lack of nursing faculty. In other words, 
registered nurses (RNs) or those with master's degrees or could 
obtain master's degrees coming in to teach.
    Now it turns out the Federal Government currently employs 
about 53,000 nurses that have the educational background and 
expertise to teach the next generation of nurses. Now I 
appreciate that you are struggling to find the nurses we need 
in the Federal Government. I am hoping that I can talk to you 
about some possibilities here because if nurses out of the 
Federal workforce teach in nursing schools, they are, in fact, 
not only teaching, they are recruiting.
    They are telling stories about their careers and why they 
chose the Federal Government, which I think may increase the 
likelihood that you will have an available nursing pool in the 
future. We talked to you--I know that you began to address the 
problem through the Intergovernmental Personnel Act Mobility 
Program, which allows temporary assignment of personnel between 
the Federal Government, State and local governments, colleges, 
and universities. But my staff feels there is some hesitation 
at your agency.
    I would be interested in your perspectives on the potential 
benefit of rotating qualified federally employed nurses through 
nursing schools, what authorities the OPM has to improve 
recruitment of Government nurses in a future pipeline, and 
whether you have given any thought to the possibility of 
extending the Intergovernmental Personnel Mobility Program to 
retired Government nurses. Have you thought about this issue 
and how we might address it?
    Mr. Berry. Mr. Chairman, thank you, first, for your 
leadership in helping to create the opportunity for a program 
like this to exist. I think that the IPA Program, the 
Intergovernmental Personnel Act Program, that you were 
instrumental in creating, is a very powerful tool to achieve 
the objectives, just as you have identified. And I am in lock 
step with you on this.
    You are right to identify that we have a huge nursing 
shortage in the Federal Government, especially with regard to 
staffing our veterans hospitals. And so, for example, to meet 
those needs, we have allowed direct hire authority to the 
Veterans Affairs Department, as well as throughout the 
Government in that regard.
    At the same time, recognizing that shortage, it is a huge 
opportunity for us to have some of our more experienced 
registered nurses--and, I think yours and Senator Collins idea, 
to bring people back and out of retirement who aren't ready to 
sit, or play golf full time, and to reengage them to allow us 
to outreach, be the recruiters and tell their story, not only 
passing on their knowledge to the shortage which exists 
throughout our State and local government operations, but in 
the Federal Government. I think it is a powerful thing.
    The Federal Government should always be in a leadership 
role. I really believe we have that responsibility. And so, 
prior administrations had somewhat deemphasized this program. 
They had even stopped reporting on it to you. So, we didn't 
know for a while how many people were doing this, and whether 
this program was having an effect or whether agencies were 
stepping up to play this role.
    We have reinstituted reporting to you on this matter. 
Therefore, we are going to start tracking again how many people 
are doing this. So we will be able to tell you from year to 
year whether we are achieving the goal that you want, which is 
making sure that we are stepping up not only in the nursing 
program, but in many programs.
    I think that you have identified and put your finger on a 
critical place that we have got to pay careful attention to, 
and that is the nursing shortage throughout the country. And 
the IPA Program can allow the Federal Government to play a 
leadership role.
    If there is any back stepping or slow stepping on my 
staff's part, my commitment to you is that I will goose them 
along very aggressively. We would be very happy and honored to 
work with you and Senator Collins' staff to make sure that we 
are aggressively pursuing this program, and that you are proud 
of its results.
    Senator Durbin. If Senator Collins will spare me one little 
vignette here? About 4 or 5 weeks ago, I was in Africa with 
Senator Sherrod Brown, and we visited with the president of 
Ethiopia, and I discussed with him, among other things, the 
fact that so many Ethiopian medical professionals now practice 
in the United States. In the Washington, DC, area there are 
about 2,500 Ethiopian-trained doctors.
    And I said I know your country desperately needs medical 
professionals, and we are stealing them away, and I would like 
to know your reaction to it. He said, well, we have a plan. And 
our plan is called flooding and retention. You want Ethiopian 
doctors? We are going to produce more than you could possibly 
dream of, and they are going to go to your country and work and 
send money back to Ethiopia, and we will keep enough here to 
meet our needs.
    It is interesting that they have decided rather than to 
fight us, to basically say if you want our people, we will 
train more of them. And the United States seems to be slow to 
get to that point. We just don't seem to be ready to make a 
commitment. We know this is looming, and it is going to cause a 
lot of problems.
    So I hope the Federal Government can inspire and lead in 
this area and show some innovation.
    Mr. Berry. Mr. Chairman, if I could? I would just like to 
give an extra shout out to the Department of Veterans Affairs. 
The leadership there, Secretary Shinseki and their Deputy 
Secretary Scott Gould, their human resources Assistant 
Secretary John Sepulveda, have been phenomenal to work with. On 
this issue, I think they take the philosophy that the way to 
beat this is not to try to outcompete State and local 
government. It is to try to grow the pool together.
    They are investing significant resources this year to help 
move up not only as we--to get LPNs move to the RN level. We 
have all of these pools that with the right accredited 
training, we can increase these pipelines. It is an advantage 
for us to retain. It is also an attraction for recruitment.
    Through the multiple training we can jointly work with 
State and local governments so that both benefit from this 
program. They are putting real resources on this, millions of 
dollars. I think we are going to be able to move the needle on 
this this year for the first time in a long time.
    Senator Durbin. Well, let us try to work together.
    Mr. Berry. Absolutely. Be honored to, sir.
    Senator Durbin. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

           POSTAL SERVICE OBLIGATION TO RETIREMENT TRUST FUND

    Mr. Berry, we held a hearing last week about the Postal 
Service's financial crisis, and there are two major issues that 
have come up with which the Postal Service is working closely 
with OPM. And I want to ask your opinion on both.
    First of all, we had testimony from the inspector general 
of the Postal Service, who discussed a report that his office 
issued, which concluded that the current system of funding the 
Postal Service's obligation to the Civil Service Retirement 
System has resulted in the Postal Service overpaying by $75 
billion, a truly astonishing find.
    Now it is my understanding that the OPM determined this 
payment amount and explained its rationale in a 2004 letter to 
the Postmaster General, and I have read that letter that says 
the Board of Actuaries approved it and reviewed it. But this is 
a huge difference, and the reason this is important is if, in 
fact, there is an overpayment of $75 billion, it would help 
solve a lot of the Postal Service's problems.
    Getting a handle on this, however, has been extremely 
difficult.
    Can you tell us whether OPM still stands by the analysis 
and payment levels that were established in 2004?
    Mr. Berry. Senator, this is a very tough issue, as you have 
identified it. I am keenly aware of the challenges the Postal 
Service is facing right now and have met with the Postmaster 
General as well as the Postal Service inspector general on this 
very issue.
    Let me answer your question directly. Yes. For the time 
being, we do stand by the initial assessment. That assessment, 
as you mentioned, was upheld by the Board of Actuaries and the 
Government Accountability Office (GAO), not just the Board of 
Actuaries.
    Now, the Postal Service inspector general has a new 
argument that they are advancing. I am very happy to go back 
and have that reconsidered. We will reevaluate our position, 
reconsidered with GAO and the Board of Actuaries to see if we 
are wrong. If so, we will adjust.
    My responsibility to you as trustee of the retirement funds 
is to make sure that whatever we do, the fund is whole and that 
we can retain solvency and pay the claims as they come due.
    That being said, I recognize the complexity and the 
challenges that are before us, and have made very clear that I 
am very willing to sit down with the Treasury Department, OMB, 
the Postal Service, and GAO and be a constructive partner in 
crafting a solution that guarantees that we can meet the Postal 
Service's concern and protect the solvency of the fund. I think 
I have made very clear that, in other words, we are very open 
minded to try to help however we can.
    If, at the end of the day--because, like you, I am not an 
actuary, the lawyers and the actuaries say, John, your trustee 
responsibilities prohibit you from doing what these other folks 
want to do, I will be very happy to come back and tell you that 
this might require this change in legislation to do what you 
would like to do. This is how I could advise you on how best to 
move forward.
    Right now, you are exactly right. We need to get everybody 
around one table and have people work together to try to crack 
this and resolve this once and for all.
    Senator Collins. And while you are doing that, you also 
need to look at the payments to the retiree health benefits 
fund.
    Mr. Berry. Yes.
    Senator Collins. It is a different issue, but another 
issue, and I know that you have been having some meetings on 
that as well, but that there is not yet a consensus.
    We are just trying--well, let me speak for myself. I am 
just trying to get a handle on what is the appropriate payment. 
I just left a meeting where a person told me that the inspector 
general is wrong and is at one end of the spectrum, and OPM is 
wrong and at the other end of the spectrum, and the truth is 
somewhere in the middle. I don't know. I am not an actuary. 
There are obviously budget implications to shifting from the 
Postal Service the obligation to the Treasury, and I understand 
that. But it would be nice to know what the answer is in terms 
of just doing a factual analysis when we are hearing such 
diverse things.

                       DOMESTIC PARTNER BENEFITS

    I will go back to that. I apologize for cutting you off, 
but just so in this first round, I could quickly get one more 
question in, and that is on the domestic partners benefit bill.
    As you know, last October, our Homeland Security and 
Governmental Affairs Committee held a hearing on the domestic 
partners benefits and obligations bill, which I introduced with 
Senator Lieberman. This bill would provide the Federal 
workforce with the same kinds of benefits that are very 
prevalent in the Fortune 500 benefit structure, and those are 
the people we are competing with, by the way.
    At the conclusion of the hearing--not to give you a hard 
time, but at the conclusion of the hearing, you did indicate to 
Senator Lieberman and me that ``the cost of the bill is of such 
a level that I think we will be able to identify efficiencies 
to fully offset the cost over the term of the administration. 
If you need a commitment or a promise to that effect, I am 
happy to deliver it.''
    It has been 5 months since that hearing, and we are still 
waiting for those offsets, which, you should understand as a 
strong supporter of the bill, is preventing the bill from being 
taken up on the Senate floor until we identify those offsets. 
And so, where are we on that issue?
    Mr. Berry. Senator, first, thank you again for your 
leadership on this issue. The administration strongly supports 
the legislation that you, Senator Lieberman, Senator Durbin and 
many others are supporting. I don't want this to be a catch 22. 
Let me make this ironclad promise to you.
    Currently, we have an offset that is going through the 
clearance process with Office of Management and Budget. We are 
waiting for the committee to wrap up its report so that we can 
get Congressional Budget Office (CBO) scoring so we can 
guarantee that the offset we will give you equals the CBO cost 
estimate. Once we know that for sure, then I can meet our word 
to you. We have identified, I think, a very good offset.
    Now, the chairman mentioned that my last job was Director 
of the National Zoo. As you know, especially in these times, 
offsets have become a very precious commodity. I feel like 
having a good offset is like going into the lion and tiger 
house with a plateful of meat. You get a lot of attention.
    So, I am sort of loathe to reveal the offset for fear, 
quite frankly, that a larger tiger might take it away for 
another purpose.
    My promise to you would be as soon as the subcommittee is 
ready to go to the floor and we have that CBO scoring, we will 
have an offset to cover the entire cost of the amendment for 
you so that you can move expeditiously to the floor without any 
delay.
    I don't offer that as trying to be cute, but that is 
essentially where we are right now.
    Senator Collins. Thank you.

               GUARD AND RESERVIST DIFFERENTIAL PAYMENTS

    Senator Durbin. You talked a little bit in your opening 
about an effort I had underway for years to try to make sure 
that those Federal employees who were activated to serve, 
deployed as members of the Guard and Reserve would not suffer 
any pay loss. State, local governments, private companies have 
all stepped forward, and we used to honor them with a special 
Web site at the Pentagon, thanking them for their patriotism. 
And yet the largest employer of Guard and Reserve in America, 
the Federal Government, failed to do the same thing.
    So I had one Senator who was an obstacle. I never convinced 
him, but I outlasted him and eventually passed in fiscal year 
2009 the language necessary for this. Can you give me any 
idea--we talked at the time how it was important that those who 
qualified be paid on a timely basis. Give me an idea of the 
process that a Federal employee who is notified that his or her 
unit had been activated, about to be deployed, would follow to 
make sure that if they do qualify, they would receive these 
payments.
    Mr. Berry. Mr. Chairman, again, let me commend you on your 
leadership on this issue for so many years. Thank you on behalf 
of all of our reservists for delivering this great success.
    I apologize for the delay in issuing guidance to the 
agencies about this. We got that guidance out in December. The 
reason, we found, wasn't that the civilian pay was complicated. 
It was the military pay side that was very complicated, trying 
to figure out do you include the housing payment? Do you 
include the hazard allocation? What is included in terms of 
military pay to define what the gap would be to ensure that we 
were treating them very fairly.
    We finally reached a consensus with the Defense Department 
and the Office of Management and Budget on this and were able 
to issue that guidance.
    The first thing I want to assure you about is the law you 
enacted took effect in 2009, March 11, 2009. We didn't get 
around to issuing the guidance until last December. Reservists 
are eligible for that pay back to the date of enactment. Even 
though we have made that clear in the guidance, and we will 
make sure that everyone is made whole back to the date of 
enactment. I want to promise you that we will ensure that no 
one is shortchanged because of our delay in getting that 
guidance out because of the complexity.
    There are essentially four finance centers that pay 
employees on the civilian Department of Defense (DOD) side and 
throughout the Federal Government. The GSA runs one; the 
Department of Defense has the DFAS center; the Interior 
Department has what is called the National Business Center; and 
the U.S. Department of Agriculture (USDA) has the National 
Finance Center. We have been working with them to implement 
adjustments to their pay systems so that these calculations can 
now be made, and the reservists can be made whole.
    And so, that is underway. I don't know if we have an exact 
date. If I could supply it to you for the record----
    Senator Durbin. Of course, you can.
    Mr. Berry [continuing]. The exact date we will be able to 
do that?
    Senator Durbin. And if you could, and if you don't know at 
this moment, the number of Federal employees who are in the 
Guard and Reserve. I don't know if you have that. If you don't, 
you can provide that to me as well.
    Mr. Berry. We estimate that the number could range, 
depending on the year, somewhere between 5,000 and 15,000 
Federal employees at any one time that are on active military 
duty in the Reserve. That is the total number of the estimate 
that we gave this morning, 150,000?
    We believe that several thousand or so will be eligible for 
direct payment under this proposal have been paid less than 
what they would have been paid in their civilian job and that 
this bill will allow us to make up for that. So it will be 
significant, and we will make sure it gets implemented quickly.
    [The information follows:]
               Status of Reservist Differential Payments
    The status of making reservist differential payments varies among 
payroll providers. The most recent information we have from the four 
major providers is as follows:
General Services Administration (GSA)
    On June 1, 2010, GSA reported that it had implemented automated 
capability for processing reservist differential during pay period 
ending May 8, 2010. GSA made its first reservist differential payments 
during pay period ending May 22, 2010.
National Business Center (NBC, Department of the Interior)
    On June 2, 2010, NBC reported that since February 2010 it had 
manually processed several reservist differential payments. NBC 
reported that it continues to remain on schedule to automate the 
reservist differential in its Federal personnel/payroll system August 
2010 release.
National Finance Center (NFC, Department of Agriculture)
    On June 4, 2010, NFC reported that effective April 19, 2010, client 
agencies of NFC were able to enter reservist differential payments into 
its Special Payment Processing System (SPPS). NFC published processing 
instructions on its website via an NFC bulletin dated April 16, 2010. 
NFC reported that it had processed a total of 30 payments as of June 4 
thru its SPPS system.
    NFC also reported that effective May 9, 2010, the programming 
modifications for OPM's Update 52 to the Guide to Processing Personnel 
Actions (GPPA) related to reservist differential were completed and 
available for clients to begin their processing. NFC has published 
processing instructions related to these changes on its website via an 
NFC bulletin dated May 18, 2010.
     NFC reported that it continues to perform the necessary analysis 
and research to address the system changes needed for the new Pay 
Status/USERRA codes related to the Nature of Action Code (NOAC) changes 
for reservist differential as per OPM's Update 61, Update 02, of the 
OPM Guide to Data Standards, issued April 1, 2010. Once this task has 
been completed, NFC will establish a target implementation date for 
this final phase of the project.
Defense Finance and Accounting Service (DFAS, Department of Defense)
    On June 9, 2010, DFAS reported that it had a manual workaround in 
place to make reservist differential payments. As of pay period ending 
May 22, 2010, 331 payments have been made for a total of approximately 
$800,000. All of these payments were made to DOD civilians.
    On August 17, 2010, DOD reported it had identified approximately 
5,558 appropriated-fund DOD employees so far as being eligible for 
reservist differential (i.e., had qualifying active duty service). 
Approximately 532 of these employees were due retroactive differential 
payments. For those 532 employees, the consolidated amount of reservist 
differential owed is approximately $1.3 million. The total amounts 
covering anywhere from 1 pay period to 24 pay periods ranged from 
$10.75 to $26,665.02. The median total figure was $1,518.71. The 
average amount (before taxes) is approximately $2,500. DOD is in the 
final stages of analyzing a second group of employees that may be 
eligible for retroactive reservist differential payments. Payments will 
be effected starting September 17, 2010.
    On June 24, 2010, DFAS provided non-DOD client agencies procedures 
to follow for authorizing reservist differential payments and followed 
up with a discussion during a quarterly customer meeting in July 2010. 
As of September 2010, DFAS has processed payments for the Departments 
of Veterans Affairs and Energy and the Environmental Protection Agency.

                  HIRING INDIVIDUALS WITH DISABILITIES

    Senator Durbin. If I could ask one other question, and it 
relates to disability policy in hiring. I talked to my staff 
because I think Congress is slow to meet the needs when it 
comes to the disability community. And I talked to my staff 
about our office and said, ``What can we do here?''
    I meet a lot of disabled veterans out at Walter Reed and a 
lot of folks who have served, come back needing a job, as an 
example, disabled veterans and others in the disability 
community. It has been hard. It has been more difficult than I 
thought it would be.
    Sometimes it is matching up our job description with their 
talents, and our schedule, as crazy as it is from time to time, 
with their personal and family needs. And I am wondering what 
you are doing, as you look at the Federal Government, to 
address this, whether our problem is unique or we just didn't 
go to the right place for information and guidance.
    What can we do, should we do as Congress or as the Federal 
Government to give talented disabled people a chance to serve 
their Government?
    Mr. Berry. Mr. Chairman, thank you for your leadership on 
the Americans with Disabilities Act, with the amendments. You 
have been a stalwart leader over the decades on this issue. I 
know you and Tony Coelho and Mr. Hoyer have been partners in 
advancing this effort and this initiative, and your leadership 
is deeply appreciated.
    When you look at the diversity equation in the Federal 
Government, the only group that has gone backward have been 
people with disabilities. We used to be over 1 percent. We are 
now under 1 percent, around 0.5 percent. It is embarrassing.
    This is after the passage of the Americans with 
Disabilities Act, after the passage of the amendments that you 
all secured. We need to do better. And so, one of the reasons 
that I sought and recruited Christine Griffin from the Equal 
Employment Opportunity Commission (EEOC) is whenever you deal 
with diversity and Federal law, it is a very complicated area, 
as you all know, relative from Supreme Court cases on down.
    Chris is both an attorney as well as someone who is skilled 
on this issue through her practice in the EEOC, where she was a 
Commissioner just before becoming Deputy Director of OPM. I 
have asked her to lead our effort on behalf of the President of 
an initiative that will focus not only on disability, but also 
on a diversity initiative that we could present to the 
President this summer that is going to try a new approach, 
within the scope of the law, that will allow us to better 
provide access to all communities in the country, including 
people with disabilities.
    Now especially for people with disabilities, to focus 
specifically on your question, Chris has worked with agencies 
across the Government to organize the largest-ever hiring 
event, which we are holding at the Washington Convention Center 
in April.
    What is the date, Chris?
    Ms. Griffin. April 26.
    Mr. Berry. April 26. And we welcome, if you have time to be 
able to join us at some point during that day.
    What we have done is, rather than make this just another 
job fair, we have conducted outreach through the disability 
community and advocacy groups across the country, we have 
worked with Federal agencies to identify jobs that are 
currently available, and then we have had people apply in 
advance of this event so that we can try to do exactly what you 
said, Mr. Chairman, match their skills and ability with the 
positions that are now available and open in the Federal 
Government. And then, using Schedule A authority, what we are 
going to do at this hiring event is actually set up interviews 
between the agencies where we think those matches are in the 
ballpark so that they can interview those candidates at the 
Washington Convention Center and, if it works, hire them on the 
spot. So we will have OPM staff there to advise agencies and 
applicants, and get them started immediately.
    We have very powerful tools that you and Congress have 
given us with Schedule A authority. They just haven't been used 
very effectively. And so, Chris and I are going to work very 
hard on this. The goal is to achieve forward momentum and 
progress on all fronts on the diversity level. But the place 
where we just have to move this needle, because it is the only 
one we have fallen backwards on, is with people with 
disabilities. They do deserve special attention, and we do have 
the ability to do it.
    Last, but not least, if I could just thank you all for the 
appropriation that you give the Department of Defense to fund 
the Technology Support Center because what you have done 
through that is essentially take advantage of our market 
strength. Now the Federal Government can buy all of the 
technical equipment that is needed to accommodate people's 
disability in one place and get lower prices because they can 
buy them in bulk rather than an agency buying one specialized 
piece of equipment. You have centralized that in the Department 
of Defense, and then they do it on behalf of all Federal 
agencies. And so, for any Federal agency that wants to hire a 
person with a disability, if there is a special high-cost 
technology accommodation that needs to be made, it is covered 
thanks to the program.
    The Department of Defense has been working in lock step 
with us on this program and they are going to be there with us 
on the 26th to help us in case anybody says, well, you know, 
``I have the skills to do this job, but I need a special 
computer,'' or ``I need this special phone line.''
    So, Mr. Chairman, we are committed to this issue. I am with 
you 110 percent, and I hope to God by next year, we are going 
to be able to move the needle for you.
    Senator Durbin. I will ask you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                          FEDERAL EMPLOYEE PAY

    Mr. Berry, I want to ask you about an allegation that I am 
hearing with increasing frequency, and that is the average pay 
for a Federal employee is almost double the average pay 
overall. And because I am hearing this repeated by my 
colleagues, by my constituents, by commentators on television 
so often, I would like to ask you to address that issue in a 
factual way, to help us better understand this charge.
    Mr. Berry. Senator, I really appreciate that. There is a 
lot of misinformation out there right now.
    Many of these jobs that you hear about compare Federal 
salaries, sort of the average Federal salary to the average 
private sector salary. However, they are not really comparing 
apples to apples.
    The Federal Government 50 years ago used to be a largely 
blue collar operation. Today, it is a significantly white 
collar operation, with very high-skilled positions, including 
everything from financial regulation and derivative monitoring 
to National Institutes of Health (NIH) research, to law 
enforcement and cybersecurity. The skill sets that are required 
for the Federal Government to meet its responsibilities in the 
21st century continue to increase in complexity. The average 
Federal salary includes those high-ranking positions. On the 
other hand the private sector includes a large number of 
service jobs that we do not have in the Federal Government--
restaurant workers, kitchen staff, things like that for which 
there are very few counterparts left in the Federal Government 
in these areas. And yet that is a significant portion of the 
average private sector salary.
    And so, you see how if you are going to put in a lot of 
lower-paid workers into the average private sector salary, it 
is going to be lower than the average Federal salary. However, 
you are not comparing like jobs with like jobs.
    And so, whenever you do that, whenever you try to compare 
like jobs with like jobs and put the level of responsibility 
with it and the level of education that is required, Federal 
jobs are behind the private sector. So, and I don't want to say 
in each and every case because there will be outliers, and 
where there are outliers, quite frankly, we need to adjust the 
pay system to make sure we are not ahead of the private in 
those areas by any significant amount.
    But a good case is nurses, Mr. Chairman, to go back to an 
earlier example. Only one-third of nurses in the private sector 
have a bachelor's degree. Over one-half of the nurses in the 
Federal sector have a bachelor's degree.
    So, for example, in the USA Today story, they compared 
nurses in the private sector to nurses in the public sector, 
and the nurses in the public sector were paid, I think, 
something like $5,000 more. Well, when you accounted for the 
bachelor's degree and the percentage increase, then 
immediately, that number evaporates.
    Senator Collins. Let me just say that I think you need to 
respond to that because that is gaining currency, and it would 
be helpful to have in writing your analysis and response to 
that. You have raised a number of excellent points, but I don't 
think those points are getting out there, and I am starting to 
hear this more and more often.
    What I hear is a comparison that the private sector, it is 
$41,000, and for the average Federal employee, it is like 
$70,000 something. And I think that needs to be addressed, and 
I would encourage you to do that.
    Mr. Berry. And quite frankly, one of the things we are 
looking at, Senator Collins, on this issue and what I found was 
interesting was that the formula we used was based on Bureau of 
Labor Statistics data. Well, over the years, they have stopped 
collecting the data at the level that we can really make 
careful analysis and comparisons. And so, there may be 
requirements needed to change this formula.
    And so, I have appointed a task force to wrestle with this 
formula so that we can come forward and actually defend with 
ironclad validity for you and for the American public exactly 
what the facts are based on the data. And so, we are working on 
that right now, and as soon as I get that, I will bring that up 
and make sure we carefully brief you and the chairman on this 
issue.
    Senator Collins. That would be very helpful because, 
obviously, if there is an imbalance, that is a problem at this 
time of great budget strain. But if there isn't, we need to 
better make that case and explain why.

                FEDERAL LONG-TERM CARE INSURANCE PROGRAM

    Let me switch to another issue. You will recall that there 
have been a lot of problems in the Federal long-term care 
insurance program, and we have talked a lot today about making 
the Federal Government the model employer. And believe me, it 
has not been a model employer when it comes to that program.
    So many people signed up for that program with these false 
assurances based on very misleading brochures from the 
provider, the insurance provider that indicated there would 
never be an increase in premiums if they paid this higher rate 
at a particular time. And I have those brochures. Literally, I 
personally have those brochures.
    So I was so sympathetic to the witnesses who came before us 
and now were all faced with a 25 percent premium increase. 
Well, adding insult to injury, when the provider sent out the 
new forms for us to make our choices, they made further errors 
in describing it. That is just so unacceptable, and I think OPM 
needs to do a far better job of overseeing that program.
    I have a point of personal pride here because I was a 
coauthor of the law that created this program because we wanted 
to encourage Federal employees to plan for long-term care and 
because so many people are under the misimpression that 
Medicare covers long-term care, which it doesn't. So--and this 
isn't an argument for the CLASS Act, in case my chairman is 
about to make that comment. He has a smile on his face. So I 
see that coming my way.
    But the administration of this program has been far too 
lax, and it is not protecting retirees, participants, and 
future participants. So participants and beneficiaries are not 
getting the protection that they have a right to look to OPM to 
provide.
    Mr. Berry. Senator Collins, I want to apologize to our 
retirees who especially did not have full access to that 
information and who were essentially misled and are now put in 
this awkward position. This is obviously a program that I have 
inherited and am trying to do the best we can, and we will have 
recommendations for how we can hopefully prevent this from 
happening again.
    What I have tried to do to, at least, to ease the blow, if 
you will, is to create alternatives so that not every employee 
or every member who is in that program would suffer that same 
increase. That would only be if they had the highest level of 
inflation protection over the long term.
    And so, we have tried to create options for the employees 
so that they can understand the cost of that inflation 
protection in the long term, obviously, it is not the same 
level of protection. It is lower inflation protection, but it 
would--it lowers, obviously, the cost of the increase as you 
create these alternatives.
    And so, we worked with the insurer to try to create as many 
of those alternatives as we could, and then allow the retirees 
who were in the program plenty of time to try to make their 
decision as to what level they wanted to pay for. And so, we 
have extended that through March to give them the time to 
wrestle with this. I know it is a tough decision, and I am very 
empathetic to the pain that this is causing them, and I hope we 
have given them sufficient choices that they can adjust to the 
budget that they find themselves in, as I appreciate many of 
these people are on fixed incomes now.
    That being said, one of the biggest weaknesses, in my 
opinion, as the new person coming into this program here at the 
end here, is that when the law was created, because this was an 
emerging market, Congress told us that we needed to recompete 
this program entirely every 7 years. And so, there are no--
there hasn't been an increase in rate in 7 years because we 
were able to enforce that.
    But what happens is when you recompete to ensure that you 
have people applying and actually stepping up to offer the 
service, the market has matured. And so, every 7 years, we will 
find ourselves in this exact same position where whoever bids 
on the new contract 7 years from now could do the exact same 
thing and increase rates all over again.
    And so, I think what I would like to--we have got a team 
working on this and to work with your staffs. Because the 
market has now matured in this program, we may want to look at 
a more longer-term contract that we could then enforce more 
stability in the program and prevent these spikes every 7 
years.
    And quite frankly, my biggest fear is, okay, what happens 
14 or 21 years from now when some future OPM Director is going 
to have to recompete this program and now you have more 
retirees taking the benefits than might be joining the program, 
and all of the private sector saying, ``I don't know if I want 
to join that program.'' And so, we may have no one bid. That 
would be a horrible situation.
    So we need to, I think, take a longer view on this program 
and really design it for the longer term and not in these 7-
year slices. And so, that is a long answer, but I appreciate 
the sensitivity of the issue.
    Senator Collins. Thank you.
    It is a difficult issue because if you lock one provider in 
for that many years, you may see a decline in service levels. 
That is not necessarily a----
    Mr. Berry. Right.
    Senator Collins. It is a tradeoff, but I apologize for 
going over.
    Senator Durbin. No, that is fine.

               LESSONS FROM THE 2010 SNOWSTORMS/TELEWORK

    Director Berry, I just have one last question. When I was 
outside today and it was so sunny and beautiful, and I looked 
at the trees budding and blossoming, I thought 6 weeks ago, we 
were in the midst of a blizzard, the worst snowstorm in the 
history of Washington, which literally shut down the Capitol 
and shut down most agencies of the Federal Government for the 
better part of a week. What did you learn from that?
    Mr. Berry. Ah----
    Senator Durbin. Aside from the fact that we need better 
snow removal in a lot of places.
    Mr. Berry. We are working, Mr. Chairman, with the Council 
of Governments in the region. There is going to be on April 5 
an after snow event to discuss lessons learned, and there are a 
lot of areas we could do better in terms of coordination with 
the region with lanes and snow removal. We had it in both 
directions.
    For example, Key Bridge was plowed--all the lanes on the 
bridge were plowed, but then when you got to Arlington, only 
two lanes of traffic were open. So that didn't work well. And 
vice versa, the same, 14th Street was plowed, but when you got 
into the city, only two lanes were open on 14th Street.
    So we created these bottlenecks by just not coordinating 
and saying, okay, if we are going to open four lanes here, let 
us open it the whole way and not pieces. So there is a lot that 
we can learn.
    I think the biggest thing we learned, and it is actually, I 
think, a good news story. The President called me on Wednesday 
during the second blizzard to check in and see how things were 
going. And I explained to him, I said, you know, Mr. President, 
in 1996, which was the last storm of similar import where the 
Government was closed for a period of time, less than 1 percent 
of the workforce could telework at that time because at that 
time, the two biggest obstacles to telework were security, 
protecting secure information, and second was technology. You 
just didn't have the memory capacity that, for example, this 
gentleman has right here on that portable computer.
    Bring the clock forward to this past snowstorm a month ago. 
Over 35 percent of our workforce we know was online with our 
mainframes in many agencies across the Government. Some 
agencies, for example, the Patent and Trademark Office (PTO), 
had an 85 percent productivity level during the snowstorm while 
we were technically closed.
    Well, they did that because they had a very aggressive 
telework program, the staff had the equipment and the security 
all tied up. The last major hurdle that we are trying to defeat 
right now is management intransigence. Managers just like--they 
think the person has to be at their desk, in that chair, or 
they are not doing the job. And we need to move our managers to 
be more results-focused. Because quite frankly, if they are 
doing a good job defining the result, then who cares where the 
work is getting done? Who cares when it is getting done?
    Many women and men both with child-raising 
responsibilities, would love to do work at night between 9 and 
11 p.m. once the kids have gone to bed. And should we, as a 
Government, care about that? Yes, we give them the tools to 
allow them to get the work done. Maybe they are not working 
from 3 to 6 p.m. because they pick the kids up from school and 
are helping with the homework but as long as the work gets done 
that's what matters.
    And so, I think we can still get the 40 hours, but we can 
be more flexible in how we approach it. And where agencies that 
are doing that like the Patent and Trade Office, when we were 
closed, they weren't closed. They accomplished 85 percent 
productivity for the taxpayers.
    At OPM, we accomplished only about 35 percent in that area, 
but we did 95 percent in our background investigations. You 
know why? All of our security background investigations, 90 
percent of what is done throughout the Government are done out 
of people's homes. We have our caseworkers all across the 
country working out of their homes. They do it securely, and 
they do it professionally. And we can do this.
    So I told the President in 12 years, we have got it to a 
point where we went from 1 to 30 percent of the Government 
being able to operate. Shouldn't the goal really be 80 to 90 
percent, where everybody would be like the PTO? So that may be 
within the next couple of years, if we really put our shoulders 
to this, and we get people the right equipment and we deal with 
this management problem of intransigence, we could have 85, 90 
percent Government functionality during any event because we 
ought to be able to maintain continuity of operations.
    And what I ought to be able to say is we're not closed 
today. We are on a mobile work day. And whether it is a 
snowstorm or whether, quite frankly, if a dirty bomb goes off 
somewhere in the city and we might have to evacuate a portion 
of the city for a long period of time, we still need to 
maintain those Government operations. And so, I think this is 
essential for continuity of service. We need to get there, and 
telework is the most powerful tool to do it.
    And so, that would be my biggest lesson learned, Mr. 
Chairman, where I think there is a lot of hope, and we can do a 
lot better.
    Senator Durbin. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. Director Berry, thanks for coming. We are 
going to submit some questions to you. If you can get back to 
us in a timely fashion, we would appreciate it. Look forward to 
working with you. Thank your staff and all the committed people 
at OPM.
    Mr. Berry. Thank you, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard J. Durbin
                    retirement systems modernization
    Question. OPM's processing of Federal employee retirements has long 
been recognized as paper-intensive and reliant on antiquated systems 
while not providing prompt and complete benefit payments upon 
retirement. Since 1987, the agency has attempted to modernize its 
retirement process and systems through a series of four initiatives, 
none of which has been successfully completed. The following timeline 
shows the retirement modernization initiatives from 1987 to present.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In April 2009, GAO reported that OPM's latest retirement 
modernization effort (referred to as RetireEZ) remained far from 
achieving the modernized capabilities the agency intended. Also, OPM 
did not have a complete plan for proceeding with the modernization. 
What are OPM's specific plans for retirement modernization, including 
program scope, implementation strategy, lines of responsibility and 
authority, management processes, schedule, and expected results?
    Answer. OPM is deeply committed to modernizing the Federal 
retirement system and addressing the issues identified in the 
Government Accountability Office's (GAO) April 2009 report regarding 
OPM's Retirement Systems Modernization (RSM) program. To ensure that 
work on RSM receives the highest level of attention, Deputy Director 
Christine Griffin is leading our efforts on this program and she has 
made it her top priority. We have also realigned the program to the 
Chief Information Officer.
    Consistent with Director Berry's ``back-to-basics'' strategy for 
the RSM program, priorities for fiscal year 2010 include modernizing 
the retirement calculators used to calculate the bulk of Civil Service 
Retirement System (CSRS) and Federal Employees Retirement System (FERS) 
retirements and establishing key ``building blocks'' to transition from 
a paper-based to an automated retirement process. Those ``building 
blocks'' include a data warehouse to store and allow access to 
retirement data and establishment of a method for agencies and Shared 
Service Centers (SSCs) to send electronic retirement information to OPM 
and across the government (``data feeds'').
    The data warehouse improvements will help OPM to process 
retirements faster by enabling collection of retirement data over the 
course of an employee's career rather than primarily at the time of 
retirement. Collection of this information through recurring data 
feeds, and an online retirement application will allow for validation 
of data prior to submission, thereby preventing incomplete or erroneous 
information from being submitted for retirement processing. Storage of 
this information will speed the adjudication process by making clear 
what information is available and what information may be outstanding. 
Given today's environment where over 30 percent of retirement cases are 
incomplete when submitted to OPM for processing, the possibilities 
exist to vastly reduce the amount of work required to ``hunt down'' 
missing information.
    Improvements to the retirement calculator consolidate all 
calculations into a central rules engine that can be utilized across 
retirement processing systems as applicable; and will allow for 
integration with the data warehouse, thus eliminating time-consuming 
and error-prone manual data entry from today's paper files. This 
integration will reduce processing time and claim adjudication errors.
    During fiscal year 2010, OPM improved the management of the program 
to address the concerns GAO identified in their April 2009 Report. 
Specifically, the RSM program was put under the Executive leadership of 
Deputy Director Griffin, with a clear strategy, lines of authority and 
management best practices implemented and identified in key program 
documents including a program Executive Charter. The RSM program 
generated cost estimates based on GAO's Cost Estimating and Assessment 
Guide and developed a comprehensive project plan, with a schedule and 
expected results (Integrated Master Schedule). OPM tracked the RSM 
program progress through OPM's Earned Value Management System, which 
measured RSM's performance based on adherence to scope, cost and 
schedule. We have and will continue to keep Congress and GAO apprised 
of our progress in addressing the recommendations made in GAO's 2009 
Report.
    For fiscal year 2011, the RSM program continues to focus on the 
``building blocks'' needed to improve the retirement system and 
transition from a paper-based environment, including:
  --Modernizing critical calculator and retirement systems;
  --Automating manual paper-based retirement system through electronic 
        data collection and applications;
  --Implementing automated tools to improve retirement case processing; 
        and
  --Imaging incoming paper retirement records.
    This approach differs from previous modernization attempts in 
several ways. First, each of the previous approaches were based on a 
complete overhaul and replacement of all retirement processing systems. 
The current approach takes a more measured approach in assessing which 
systems are operating effectively and targeting specific systems for 
replacement or upgrade. The second differentiator is the role of the 
government in integrating the various components. In all previous 
iterations, OPM relied primarily on vendors, either the prime vendor or 
a second vendor to integrate the systems components into a 
comprehensive retirement solution. OPM has realized that it was 
extremely difficult to identify a contractor with sufficient knowledge 
of OPM's current systems and proposed solution components to complete 
this task effectively. The current approach puts OPM Federal staff in 
this role, augmented by contractors for specific tasks, but with 
overall OPM staff leadership. The current approach differs from 
previous efforts by focusing on incremental improvements rather than a 
``big-bang'' implementation with the completely revamped retirement 
system available on day one. This approach allows for much more 
efficient use of resources and decreased risk of system failure that 
would jeopardize retirement processing operations. The primary 
advantage to enabling the success of the current incremental approach 
is a Federal-wide standard, The Guide to Retirement Data Reporting, 
which defines the data and formats for agencies to send retirement data 
feeds to OPM.
    Question. For more than two decades, the agency has attempting to 
modernize its retirement processes and systems, including in-house and 
privately sourced efforts, and none of these has been fully successful. 
Most recently, almost 2 years ago, OPM abandoned the latest effort. 
Where are you now in your decisionmaking process with regard to 
development of a new system?
    Answer. OPM senior leadership and the leadership of OPM Retirement 
and Benefits have fully endorsed the RSM priorities identified for 
fiscal year 2010 and fiscal year 2011, which are consistent with the 
Director's ``back to basics'' approach for the program. These 
activities move the program in a methodical and deliberate fashion in 
order to ensure successful delivery of key ``building blocks.'' These 
activities align to the capabilities GAO identified for a modernized 
retirement system including upgrading the aging OPM calculators and 
moving from a paper-based retirement process to an automated process. 
Delivering modern, improved retirement services, including web-enabled 
retirement applications, self-service tools, retirement estimators, and 
a comprehensive retirement case management system is dependent on first 
establishing the core ``building blocks''.
    Funding has been approved by OPM's Capital Investment Committee and 
is being put in place for the retirement calculator improvements and 
development of a pilot online retirement application tool in fiscal 
year 2011.
    Question. For fiscal year 2011, you are requesting an additional 40 
FTE in order to speed the retirement claims processing time. This 
staffing is needed because over the past few years, staffing levels 
were reduced in anticipation of expected efficiencies which did not 
occur. Please elaborate on the nature of the staff to be hired--what 
will happen to staffing once the efficiencies occur?
    Answer. Retirement processing staffing levels were reduced mainly 
through attrition over the past few years in anticipation of increased 
automation of retirement processing under prior RSM efforts. Since 
Director Berry's ``back-to-basics'' strategy for RSM will not deliver 
on significant efficiencies in the short-term, OPM must increase 
staffing levels in order to process its anticipated workload in a 
timely manner. Beginning in fiscal year 2011, the 40 FTE will permit 
OPM to process an additional 24,000 claims. The additional claim 
processing will reduce claims processing time by up to 5 days. 
Furthermore, the 40 FTE will have a greater impact when the Legal 
Administrative Specialists (LAS) have been fully trained and possess 
more experience. The LAS's will then be expected to process 32,000 more 
claims which will reduce claims processing times by an additional 2 to 
4 days. As greater efficiencies are achieved, staffing needs going 
forward will be evaluated.
    Question. OPM's February 2010 Retirement System Modernization 
Quarterly Report to the Appropriations Committee identified two main 
components of the retirement modernization program: (1) updating all 
computer systems that relate to the administration of retirement 
benefits; and (2) transitioning from a process that is heavily 
dependent upon the use of paper documents to one that utilizes 
electronic data. What has been OPM's specific progress toward 
developing these two components? Has OPM developed results-oriented 
(i.e., objective, quantifiable, and measurable) performance goals and 
measures to use in determining and reporting program progress?
    Answer. In terms of updating the computer systems that support the 
administration of retirement benefits, OPM has focused on improving the 
retirement calculators that perform the bulk of Civil Service 
Retirement System and Federal Employee Retirement System retirement 
calculations. In fiscal year 2010, the RSM program:
  --Completed standardizing 50 percent of rules and calculations. 100 
        percent will be completed in September 2010 and will be used to 
        verify that all OPM calculators are using standard, current and 
        correct calculations.
  --Started to code the standard calculations into a new calculator 
        platform (pilot).
    In fiscal year 2011, RSM will continue to code all calculations 
into a single calculator with a goal to consolidate OPM calculators in 
a modern, up-to-date system.
    In terms of transitioning from a paper-based to an automated 
retirement system, in fiscal year 2010, the RSM program:
  --Established a retirement data warehouse, which meets all security 
        requirements.
  --Transferred over 9 million imaged retirement records to the 
        warehouse.
  --Implemented data feeds to receive data electronically from the 
        National Business Center and National Finance Center. Three 
        other Shared Service Centers (SSCs) are providing timelines to 
        send electronic retirement data via data feeds with OPM (GSA, 
        DOD and U.S. Postal Service).
  --Provided initial access to electronic and imaged retirement 
        information.
  --Completed the Guide to Retirement Data Reporting and publically 
        posted the data standard, enabling agencies and SSCs to send 
        retirement data in one format, and share that information 
        across the Federal government.
    The work supporting the transition to a paper-less retirement 
system will continue in fiscal year 2011.
    In addition to measurement of RSM's performance against the 
program's Integrated Master Schedule and Earned Value Management 
reporting addressed above, the RSM program has provided results-
oriented program goals in all budget submissions (i.e., Exhibit 300 
Capital Asset Plans). To demonstrate this, one of the retirement 
program's priority goals is to reduce the percentage of incomplete 
retirement records OPM receives from agencies to less than 30 percent 
by the end of 2010 and, going forward, to reduce the percentage of 
incomplete records to 28 percent by the end of 2011 and 25 percent by 
the end of 2012. This is one of only five of the Director's near-term 
High Priority Performance Goals, on which OPM is reporting quarterly 
progress at Performance.gov.
    Question. According to OPM's February 2010 Retirement System 
Modernization Quarterly Report to the Appropriations Committee, the 
agency has been coordinating with other Federal agencies regarding 
timing and application capabilities for its retirement system 
modernization. In addition, OPM's report stated that it plans to 
continue developing standardization rules through interagency 
coordination. To what extent is OPM dependent on other Federal agencies 
to modify or make changes to their system(s) in order for OPM to 
accomplish its goals for retirement system modernization?
    Answer. The key to transitioning to a paperless retirement process 
is for OPM to receive electronic data from Shared Service Centers 
(SSCs). RSM continues to meet regularly with the SSCs to discuss 
retirement data requirements and the steps necessary to begin sending 
electronic data versus paper. The SSCs are providing schedules to send 
electronic retirement data to OPM. Two SSCs are already providing 
retirement data to OPM electronically, and the rest are planning to do 
so. Regular meetings and discussions with the SSCs also entail 
coordinating the validation checks that can be applied to information 
when it comes to OPM in order to verify it is complete and properly 
formatted. These requirements are documented in the Guide to Retirement 
Data Validations version 1.0. This guide will help OPM identify 
problems SSCs may have when sending information to OPM and also any 
problems with the data itself. OPM will be able to report these 
problems back to the SSCs so they can be corrected in advance of 
retirement processing.
    Question. OPM's February 2010 Retirement System Modernization 
Quarterly Report to the Appropriations Committee included retirement 
call center goals for the agency. According to these measures, OPM has 
not been meeting agency established customer service standards. For 
example, OPM has not met its established goal for answering calls 
within an average of 1 minute since August 2009. What steps is OPM 
taking to improve the call center's service to Federal employees and 
retirees?
    Answer. In our commitment to provide high quality customer service, 
OPM has taken several steps to improve the Call Center's service by 
promoting our Retirement Services Online webpage; focusing on resolving 
customer inquiries in the first call; adjusting work schedules; and 
employee training.
    Many telephone inquiries that are received are transactions that 
can be performed by our customers online. Call Center agents are 
educating our customers about the online tools that are available 24 
hours a day, 7 days a week. This will help customers get their annuity 
information faster, view and manage their annuity, and will help reduce 
call volume and customer hold times.
    Stronger emphasis has also been placed on resolving customer 
telephone inquiries in the first call, which will significantly reduce 
the number of times a customer needs to contact the Call Center. Call 
Transfer Rates have decreased by 40 percent over past 2 years, and 
although Average Talk time increased by 18 percent over past year 
customers are more satisfied having their inquiries resolved in one 
call.
    In an effort to adequately staff the Call Center, staffing 
schedules have been adjusted to better handle the hourly call volume 
during peak times. Higher skilled employees (Customer Service 
Specialists) will now handle calls, which will result in improved 
resolution rates and improved efficiencies.
    Finally, of the current Call Center staff of 84, there are 18 newly 
hired customer service specialists. Talk time should come down as new 
employees become comfortable and familiar with their positions. We have 
already seen a 3 minute decrease in Average-Speed-of-Answer (ASA) in 
July 2010 over the previous month (from 15.8 minutes to 12.8 minutes). 
However, this may not be sustainable as we return to the busy times of 
the year.
    Implementing the steps above will improve customer service at the 
Call Centers, but not be enough for us to reach the 1 minute goal for 
the average speed of answer. This goal is a by-product of past 
priorities which was based on the provision that OPM would have a fully 
automated retirement system and substantially increased Call Center 
staff. Unfortunately, those provisions did not come to fruition. 
Nonetheless, customer service is a priority for OPM and we will analyze 
this in more detail to further improve our performance.
    Question. GAO made recommendations that OPM correct significant 
weakness in five key management areas that are vital for effective 
development and implementation of a modernized system: cost estimating, 
project monitoring (using earned value management), requirements 
management, system testing, and project oversight. Specifically, GAO 
reported that OPM had not developed a cost estimating plan or 
established a performance measurement baseline--prerequisites for 
effective cost estimating and earned value management. In addition, the 
agency had not established processes and plans to guide system 
requirements development work or addressed test activities. Finally, 
although OPM's Executive Steering Committee and Investment Review Board 
were aware of retirement modernization activities, these bodies did not 
exercise effective oversight, which allowed the aforementioned 
management weaknesses to persist. Correcting these weaknesses is 
critical not only for the success of OPM's retirement modernization, 
but also for that of other modernization efforts within the agency. 
What is the status of OPM's efforts to address and overcome the program 
management weaknesses GAO identified? What steps is OPM taking to 
ensure that the program management weaknesses GAO identified are not 
adversely impacting the financial systems modernization program?
    Answer. OPM has met with the GAO as a follow-up to their April 2009 
Report on weaknesses with the technical implementation and management 
of the RSM program. RSM's continuous review process is central to fully 
adopting the recommendations of GAO to ensure the restructured program 
meets its objectives on time and within budget. To this end, RSM 
developed a reliable program cost estimate in 2009 in response to GAO 
findings and OMB guidance to rejustify further investment. Using GAO's 
Guide to Cost Estimation and Assessment the RSM Business Case Analysis 
(BCA) was developed and provided to OMB in September 2009 with the BY 
2011 Exhibit 300. The BCA was recently updated for 2010 in support of 
the BY 2012 program budget and investment justification and provides 
more informed basis for acquisition and other planning. RSM established 
a new Program Management Baseline in June 2010 based on this 
information and updated and continues to develop several documents 
which are used in managing the program.
    These key documents were specifically cited by the 2009 GAO Report 
as inadequate, and have subsequently been updated to correct those 
weaknesses, improve program oversight and reflect current program 
priorities. Status of these documents follows:
  --RSM Executive Steering Committee (ESC) Charter.--This charter was 
        updated to improve program oversight. The Charter reflects 
        OPM's reorganization, designating the Chief Information Officer 
        as the ESC Chair and adding OPM's Deputy Director as an ESC 
        member.
  --RSM Change Control Board Charter.--This Charter reflects OPM's 
        reorganization and reestablishes standard processes to approve 
        and manage program requirements.
  --Program Management Plan.--The update is currently under review. 
        This document provides an overview of RSM's governance, 
        describes program management roles and responsibilities, and 
        identifies the automated tools used by the program for 
        management and reporting purposes.
  --Requirements Management Plan.--Version 3.0 was approved by the RSM 
        Change Control Board in March and is currently in use in every 
        RSM effort to document requirements and calculations for 
        retirement business processes.
  --Test Management Plan.--The plan is currently under review. This 
        document outlines the testing approach that ensures the 
        programs deliver the systems and services required by OPM and 
        that those systems work efficiently to meet the requirements of 
        the users.
    OPM continues to engage with GAO as they follow up on OPM's 
progress in addressing the recommendations made in GAO's 2009 Report. 
OPM will continue to update our external stakeholders on the program as 
the execution progresses.
    Question. OPM's February 2010 Retirement System Modernization 
Quarterly Report to the Committees on Appropriations discussed the 
development of a plan and timeline for the modernization of OPM's 
legacy retirement IT systems. What is the specific plan and timeline 
for modernizing OPM's legacy retirement IT systems?
    Answer. OPM has developed a plan and timeline for modernizing the 
32 aging OPM retirement systems, prioritizing modernization of the 
systems as follows:
  --Fiscal year 2011-2012.--OPM retirement calculators, employee data 
        systems, Service Credit system and Case Control Systems.
  --Fiscal year 2013-2014.--OPM consolidated annuity payment systems 
        and post-adjudication support systems.
  --Fiscal year 2015-2016.--OPM consolidated data repository and 
        retirement reporting systems.
    OPM will undertake modernizing these systems.
               implementation of guard and reservist pay
    Question. Director Berry, at our hearing on March 24, 2010, you 
testified that between 5,000 and 15,000 Guard and Reservists employed 
in the Federal Government are eligible for the benefit in a given year, 
and that several thousand would require the pay differential. Following 
up on that, please answer for the record, how many Guard and Reservists 
there are overall in the Federal Government?
    Answer. For the purposes of this response, the term ``reservist'' 
refers to members of the National Guard, as well as members of one of 
the Reserves. Based on a recent computer match between DOD records on 
reservists and OPM records on Federal civilians, there are (as of March 
2010) at least 150,000 Federal civilian employees who are reservists. 
(The OPM database does not contain data on all Federal Government 
personnel. Among groups excluded from the OPM database are employees of 
the Postal Service, the Tennessee Valley Authority, the Federal 
Reserve, various intelligence agencies, DOD nonappropriated fund 
entities, the judicial branch, and much of the legislative branch).
    DOD reports that the total number of reservists as of June 2010 was 
about 1,320,000 (including about 1,080,000 in the Ready Reserve). Thus, 
about 11.4 percent of all reservists are known to be Federal civilian 
employees. DOD reported to OPM that, as of June 2010, 102,644 DOD 
civilian employees were reservists (including 87,670 in the Ready 
Reserve). Thus, DOD employees make up about two-thirds of the known 
Federal civilian employee population of reservists.
    As far as the number of reservists who are actually performing 
military service, OPM has made changes in its centralized employee data 
collection program, which should eventually result in readily available 
counts of the number of employees who are absent to perform service in 
the uniformed services in each quarter of the calendar year. Based on 
special analyses of existing Central Personnel Data File data, we 
estimate that 16,429 Federal employees were called to active duty 
during fiscal year 2009 and that 16,260 Federal employees were absent 
for military service as of the end of September 2009. (The 
corresponding estimates for fiscal year 2008 were 14,752 and 12,153.) 
Not all of these employees' service is qualifying for a reservist 
differential. For example, some active duty service is voluntary--i.e., 
not under the involuntary call-up laws that trigger eligibility for a 
reservist differential. Also, about 10 percent of the service is less 
than 30 days, which indicates the service is probably annual training 
and not qualifying for reservist differential. We note, however, that 
agencies may not have been reporting all annual training service if 
employees covered the training with paid leave. Thus, the true 
percentage of active duty call-ups that are annual training is probably 
more than 10 percent. We have changed the reporting requirements so 
that agencies should use the Absence--Uniformed Services nature of 
action code even for short call-ups covered by paid leave.
    Question. Can you provide a breakdown by Federal agency?
    Answer. We are able to provide a report showing the result of a 
recent OPM-DOD computer match (as of March 2010), which shows counts of 
Federal civilian employee reservists by agency. (The OPM database does 
not contain data on all Federal Government personnel. Among groups 
excluded from the OPM database are employees of the Postal Service, the 
Tennessee Valley Authority, the Federal Reserve, various intelligence 
agencies, DOD nonappropriated fund entities, the judicial branch, and 
much of the legislative branch.)

------------------------------------------------------------------------
                                                              Federal
                         Agency                              Civilian
                                                            Reservists
------------------------------------------------------------------------
Agency for International Development....................              55
American Battle Monuments Commission....................               3
Armed Forces Retirement Home............................               9
Broadcasting Board of Governors.........................               6
Commodity Futures Trading Commission....................               3
Consumer Product Safety Commission......................               9
Corporation for National and Community Service..........               3
Court Services and Offender Supervision Agency..........              14
Defense Nuclear Facilities Safety Board.................              14
Department of Agriculture...............................           1,366
Department of Commerce..................................             682
Department of Defense (other)...........................           4,623
Department of Education.................................              40
Department of Energy....................................             484
Department of Health and Human Services.................             821
Department of Homeland Security.........................           8,950
Department of Housing and Urban Development.............             135
Department of Interior..................................           1,027
Department of Justice...................................           5,634
Department of Labor.....................................             334
Department of State.....................................             249
Department of the Air Force.............................          44,803
Department of the Army..................................          55,220
Department of the Navy..................................           9,020
Department of Transportation............................           2,702
Department of Treasury..................................           1,297
Department of Veterans Affairs..........................          10,285
Election Assistance Commission..........................               1
Environmental Protection Agency.........................             190
Equal Employment Opportunity Commission.................              62
Export-Import Bank of the United States.................               5
Farm Credit Administration..............................               3
Federal Communications Commission.......................              15
Federal Deposit Insurance Corporation...................              73
Federal Election Commission.............................               3
Federal Housing Finance Agency..........................               2
Federal Labor Relations Authority.......................               3
Federal Mediation and Conciliation Service..............               1
Federal Retirement Thrift Investment Board..............               3
Federal Trade Commission................................               7
General Services Administration.........................             284
Government Printing Office..............................              34
International Boundary and Water Commission.............              11
Merit Systems Protection Board..........................               5
Millennium Challenge Corporation........................               3
National Aeronautics and Space Administration...........             341
National Archives and Records Administration............              58
National Capital Planning Commission....................               1
National Credit Union Administration....................              21
National Foundation on Arts and Humanities..............               2
National Labor Relations Board..........................               9
National Science Foundation.............................              14
National Security Council...............................               1
National Transportation Safety Board....................              18
Nuclear Regulatory Commission...........................             168
Office of Administration................................               4
Office of Government Ethics.............................               6
Office of Management and Budget.........................               9
Office of National Drug Control Policy..................               2
Office of Personnel Management..........................             142
Office of Special Counsel...............................               4
Office of the U.S. Trade Representative.................               1
Overseas Private Investment Corporation.................               4
Peace Corps.............................................               4
Pension Benefit Guaranty Corporation....................              10
Presidio Trust..........................................               2
Railroad Retirement Board...............................              14
Recovery Accountability and Transparency Board..........               1
Securities and Exchange Commission......................              25
Selective Service System................................              16
Small Business Administration...........................              45
Smithsonian Institution.................................              82
Social Security Administration..........................             768
U.S. Holocaust Memorial Museum..........................               2
U.S. International Trade Commission.....................               2
U.S. Tax Court..........................................               2
U.S.-China Economic and Security Review Commission......               3
                                                         ---------------
      Total.............................................         150,274
------------------------------------------------------------------------

    Question. Are you able to get more specific numbers from the 
Defense Department about how many eligible for the benefit and how many 
would require the pay differential?
    Answer. OPM has made changes in employee data collection which 
should eventually provide more information on Federal employees absent 
for military service, including counts of those performing service that 
is qualifying under the reservist differential law.
    OPM issued a memorandum to agencies on April 14, 2010, requesting 
the following:

    ``An estimate of the number of employees in your agency with active 
duty service between March 11, 2009, and the date of this memorandum 
that is qualifying under the reservist differential authority. This 
estimate should include all members of the Reserve or National Guard 
that have qualifying service, regardless of whether they are eligible 
for or are actually receiving reservist differential payments. The data 
should be consolidated so that one report is provided to OPM for each 
agency.''

    Based on agency responses to the above request shown on the table 
below, 17,572 employees performed active duty between March 11, 2009, 
and April 14, 2010, that is qualifying under the reservist differential 
law. (This count does not reflect employees who received reservist 
differential payments--only those who had qualifying service.) This 
count included some agencies that do not participate in OPM's 
centralized employee database, including the Postal Service, which 
reported 1,824 employees. DOD had the largest number of employees with 
11,704, which represents about two-thirds of the total. These counts 
were for a 13-month period, thus including employees with any amount of 
qualifying service during that period. A count for employees performing 
qualifying service as of a single point in time would produce a smaller 
number.

------------------------------------------------------------------------
                                                           No. employees
                                                               with
                                                            qualifying
                                                              service
------------------------------------------------------------------------
                       DEPARTMENTS

Agriculture.............................................             278
Commerce................................................              37
Defense.................................................          11,704
Education...............................................               3
Energy..................................................              48
Health and Human Services...............................              44
Homeland Security.......................................             810
Housing and Urban Development...........................              10
Interior................................................             200
Justice.................................................           1,329
Labor...................................................              18
State...................................................              20
Transportation..........................................         \1\ 129
Treasury................................................             111
Veterans Affairs........................................             777
                                                         ---------------
      DEPARTMENTS TOTAL.................................          15,513
                                                         ===============
                  INDEPENDENT AGENCIES

BBG.....................................................  ..............
Commission on Civil Rights..............................  ..............
Corp National and Community Svc.........................               3
DFNSB...................................................               2
Defense Intelligence Agency.............................              20
Export-Import Bank......................................  ..............
FERC....................................................  ..............
GPO.....................................................               4
GSA.....................................................              10
Missile Defense Agency..................................  ..............
Morris K. Udall Foundation..............................  ..............
NASA....................................................              18
National Gallery of Art.................................               1
National Geospational Intelligence Agency...............              22
Nuclear Regulatory Commission...........................               4
National Security Agency (NSA)..........................              23
OPIC....................................................  ..............
OPM.....................................................              13
RRB.....................................................               2
SEC.....................................................               2
Selective Service System................................               1
Small Business Admin (SBA)..............................               5
Smithsonian.............................................              11
SSA.....................................................              70
U.S. Access Board.......................................  ..............
U.S. Senate.............................................              13
USAID...................................................               5
USPS....................................................           1,824
U.S. Trade Rep..........................................               1
                                                         ---------------
      INDEPENDENT AGENCIES TOTAL........................           2,059
                                                         ===============
      GRAND TOTAL.......................................          17,572
------------------------------------------------------------------------
\1\ 109 of the 129 are FAA employees.

    We asked DOD to provide us with more up-to-date data on DOD-
employed employee-reservists. DOD reports that the 11,704 records are 
being analyzed in two parts. As a result of the first group analysis, 
approximately 5,558 appropriated-fund employees were identified as 
being eligible for reservist differential. Approximately 532 were due a 
differential payment. For those 532 employees, the consolidated amount 
of reservist differential owed is approximately $1.3 million. The total 
amounts covered from 1 pay period to 24 pay periods and ranged from 
$10.75 to $26,665.02. The median total figure was $1,518.71. The 
average amount (before taxes) is approximately $2,500. The second group 
of retroactive records is now in its final review stage before 
distribution to DOD components to process payment actions. Payments 
will be effected starting September 17, 2010. DOD does not currently 
have data for service periods covering April 24, 2010, to the present, 
as those records are still being analyzed.
    At any one point in time, about 13,600 DOD appropriated-fund 
employees are in an Absent-U.S. status. Of these, DOD estimates 5,400 
are potentially eligible for reservist differential (i.e., called up 
under one of the qualifying legal authorities), and 540 are actually 
due a differential payment. However, some employees may only be due a 
payment for as little as a single pay period, often associated with 
first entering or leaving active duty when overseas allowances/payments 
are not being paid. Others are due a differential payment every pay 
period of absence.
 nursing shortage and intergovernmental personnel act mobility program
    Question. Following up on the questions I asked at the hearing, I 
have an additional question on this topic. I understand that the 
Intergovernmental Personnel Mobility Program sets guidelines for the 
Departments interested in participating. It is also my understanding 
that in 2007, the Department of Defense, through the leadership of the 
U.S. Army, engaged in a similar project with the University of 
Maryland. OPM was not involved, but can you speak to the possibility of 
providing assistance to other agencies that may want to follow the 
example of the DOD's effort?
    Answer. Even though we do not have the details of the 2007 project 
involving the U.S. Army, Department of Defense (DOD), and the 
University of Maryland, as the Federal agency responsible for 
establishing guidelines and regulations for the administration of the 
Intergovernmental Personnel Act Mobility Program (IPA), OPM remains 
interested in innovations that would expand the use of the IPA Program 
Governmentwide. That could include providing assistance to agencies 
that may want to duplicate other agencies' successful efforts.
    For example, in March 2010 OPM sponsored a forum that included 
representatives from the Department of Defense, the Department of 
Health and Human Services, and the Department of Veterans Affairs. The 
purpose of the forum was to begin a dialogue with Federal agencies that 
have some involvement in the nursing profession to explore what role 
the IPA Program could play in addressing the nursing shortage, 
particularly the impact of the faculty shortage on the nursing 
shortage. Additionally, the Employment Services Division of OPM 
recently established a collaborative listserv for representatives of 
Federal agencies who administer the IPA program at the operational 
level for their agencies. It is our hope that the listserv will act as 
a valuable resource to Federal agencies by allowing them to share 
ideas, ask questions, and share best practices about the IPA Program 
across Government.
    Finally, OPM plans to engage policy and programmatic stakeholders, 
both within and outside the Federal Government, in recommending 
initiatives to promote the IPA Program.
                prohibitions on the hiring of immigrants
    Question. The Financial Services and General Government 
Appropriations bill carries a government-wide general provision 
(Section 704) relating to restrictions on the hiring of non-citizens in 
the Federal workforce. This provision has been a component of annual 
appropriations bills dating back to the Treasury and Post Office 
Departments Appropriations Act for Fiscal Year 1939. It has been 
modified at least 18 times in the past 70 years. As I developed the 
fiscal year 2010 bill last summer, I worked with the Chairman of the 
Homeland Security and Governmental Affairs Committee on revisions to 
the language to eliminate discrimination among immigrants based on 
their nation of origin. The changes were included as part of our 
enacted bill in December (Public Law 111-117, Division C, Section 704).
    The modified provision permits the hiring of all legal permanent 
residents, refugees, and recipients of asylum, provided that they 
affirm that they are seeking citizenship. I note that the President's 
fiscal year 2011 budget request proposes to retain the fiscal year 2010 
modifications. This provision applies to excepted service positions 
since a Ford-era executive order (1976) still prohibits non-citizens 
from being employed in the Federal competitive service. What actions 
has OPM taken to implement the changes in the law? Has OPM issued 
guidance to Federal agencies and updated the website? If not, when do 
you expect to do so? What assurances can you give the Committee that 
Federal agencies' human resources staff are aware of the changes and 
understand that the law no longer prevents them from considering and 
hiring immigrants in thousands of Federal positions?
    Answer. OPM has provided information for agencies and job 
applicants on the USAJOBS website (http://www.usajobs.gov/EI/
noncitizensemployment.asp#icc) regarding the changes to non-citizen 
hiring restrictions contained in Section 704. Also, OPM is discussing 
the statutory change with the Chief Human Capital Officers (CHCOs), and 
has asked CHCOs to inform OPM if agencies seek guidance on 
implementation of the new appropriations provision governing Federal 
hiring. We note that it is the obligation of each agency and its 
counsel to determine the scope of that agency's appropriation law 
restrictions in any given year and to ensure that hiring is done in 
accordance with such laws. OPM will work with OMB to issue guidance, if 
sought, on particular aspects of the new provision.
    Question. Under Executive Order 11935, only United States citizens 
and nationals (residents of American Samoa and Swains Island) may 
compete for, and be appointed to, competitive service jobs. To what 
extent has OPM been engaged in discussions with the Administration and 
OMB officials to evaluate Federal immigrant hiring policies and 
possible revisions to E.O. 11935?
    Answer. OPM has had general discussions with OMB regarding Federal 
immigrant hiring policies and options for revisions to E.O. 11935. 
However, no determination has been made regarding whether revisions are 
needed and what they might include.
                               technology
    Question. What percentage of OPM's budget request is allocated for 
technology?
    Answer. The total for all Information Technology spending (for 
example, equipment, software renewals, and applications and systems 
development support) budgeted for fiscal year 2011 is $242.85 million, 
which is 12 percent of OPM's total resources including appropriated 
funds, Common Services funds, and revolving fund activities.
    Question. Please describe the programs that would receive major 
portions of technology funding for fiscal year 2011.
    Answer. OPM's major IT investments in fiscal year 2011 include: 
$77.531 million for Enterprise Human Resources Integration (EHRI), 
which streamlines and automates information exchanges in order to give 
the Federal HR community improved access to employee HR data to improve 
workforce planning for hiring, skills development, and retention 
strategies; $39.759 million for EPIC Transformation and $27.619 million 
for EPIC Operations and Maintenance, which will ensure agencies have 
information to make credentialing, suitability and/or security 
clearance decisions; $33.484 million for operation and management of 
OPM's IT infrastructure, which provides the backbone for OPM's mission-
critical systems; $20.520 million for the Consolidated Business 
Information System (CBIS), OPM's core financial budget and procurement 
system; $13.621 million for USAJOBS for technology and program 
operations to offer Federal agencies and job seekers a modern platform 
to support online recruitment and job application; $5.105 million to 
develop a data warehouse for the Federal Employees Health Benefit 
Program; $3.160 million for Human Resources Line of Business (HR LOB), 
which drives improved HR solutions and services through the 
establishment of Shared Service Centers service delivery models and 
strategies for agencies; and $1.5 million for Retirement Systems 
Modernization, a multi-year transformation of the Federal civilian 
retirement system.
            comprehensive national cybersecurity initiative
    Question. The White House recently released the unclassified 
version of its Comprehensive National Cybersecurity Initiative--the 
government's plan to secure public and private sector computer 
networks. To this end, the White House formed an interagency working 
group to examine the promotion of cybersecurity. Reportedly, the 
working group's efforts would include roles for OPM and the Department 
of Defense to create a high performing cybersecurity workforce. What is 
OPM doing to help achieve this goal?
    Answer. OPM is leading Track 3, Federal Workforce Structure, of the 
National Initiative for Cybersecurity Education (NICE). Our primary 
objective is to implement strategies to ensure Federal agencies can 
attract, recruit, and retain skilled employees to accomplish 
cybersecurity missions today and in the future. We are implementing an 
incremental approach to understanding and defining cybersecurity work, 
developing competency models, analyzing workforce issues, and 
developing strategies that may be needed to address Federal workforce 
needs. We are working closely with agencies to meet current 
requirements, have granted Schedule A hiring authority to several 
agencies, and are encouraging the use of existing hiring flexibilities 
to meet agency needs.
    Question. What are the costs associated with this initiative?
    Answer. OPM did not receive any funding under the Comprehensive 
National Cybersecurity Initiative (CNCI). OPM is working with NICE 
leadership and National Security Staff to identify strategic priorities 
and match those to resource needs. OPM formed a NICE Track 3 workgroup, 
and personnel from OPM policy and program offices are accomplishing 
projects in support of the cybersecurity workforce. Approximately 
$23,000 from other objects funding was applied toward facilitated 
workshops for Track 3 efforts.
    Question. Please explain in detail the particular qualifications 
and skills required for positions in the cybersecurity workforce.
    Answer. In general, qualification requirements for Federal 
positions are based on the occupational series to which each position 
is classified. However, defining those requirements for the 
cybersecurity workforce is not a simple matter. ``Cybersecurity'' is a 
term of art; it is not a specific Federal occupation. Working with 
agencies, we have identified at least 18 different occupations 
(including Computer Science, Computer Engineering, Information 
Technology, Intelligence and Investigations) that cover the different 
aspects of cybersecurity work, each having its own education and 
experience requirements.
    Within its role in NICE, OPM is currently conducting a 
Governmentwide study to identify critical competencies needed across 
the Federal cybersecurity workforce. This information will help us 
correctly identify the occupations involved in cybersecurity work and 
the qualification requirements associated with those occupations. We 
have gathered initial information from agencies and stakeholders and 
will soon be surveying the workforce.
                 telework and continuity of operations
    Question. An oft-cited reason for the lack of progress on telework 
implementation in the Federal government is resistance by managers and 
supervisors. How many OPM managers and supervisors have or are 
teleworking either as an aspect of an ongoing program or in a pilot 
program?
    Answer. We do no currently have the ability to track and report on 
telework instances/participation by individual supervisors. We are in 
the process of implementing a new database that will enable us to 
capture information regarding the number of supervisors who telework. 
In the recent Employee Viewpoint Survey, 56 percent of OPM managers and 
supervisors indicated that they telework (either regularly-scheduled, 
or on an ad-hoc basis) under the provisions of our ongoing Agency 
telework program. Assuming the survey respondents are representative of 
the general supervisory population, this equates to approximately 223 
supervisors who may telework. Director Berry has been a strong 
proponent of telework governmentwide and as the leader of OPM.
    Question. What feedback have these managers and supervisors 
provided to top OPM management on policy changes or approaches that 
could facilitate telework implementation government-wide?
    Answer. We recently held managerial/supervisory focus groups on May 
24 and 26, 2010, in the District of Columbia and on June 23 and 24, 
2010, for supervisors in our field locations. Focus group comments 
reflected that supervisors and managers are supportive of telework 
flexibilities provided at OPM. They would like to see more consistency 
across organizations and expansion of the use of telework arrangements. 
In general, they favor encouraging flexibility without micromanaging.
    Question. Of the Federal employees who are deemed essential 
government-wide, how many are able to telework in an emergency?
    Answer. OPM does not have Governmentwide data on the number of 
employees deemed ``essential''.
    Question. Do you have any government-wide data on how many 
essential Federal employees were able to perform mission critical 
functions during the 4 days of the snow blizzard in February 2010?
    Answer. Based on information we obtained from a special request to 
agencies in the area most affected by the snow storms, we estimate the 
number of essential Federal employees who worked in the National 
Capital Region during the 4 days of the snow blizzard was 13,523.
    Question. How many agencies have incorporated telework into their 
continuity of operations planning?
    Answer. In response to OPM's annual call for 2008 telework data, 
56.4 percent of the 78 responding agencies had incorporated telework 
into their continuity of operations planning. Based on a preliminary 
review of the 2009 data, this number is closer to 70 percent of 
responding agencies.
    Question. How many essential OPM employees were able to continue 
their critical functions?
    Answer. All 48 essential OPM employees were able to continue their 
critical functions.
    Question. What are the savings--or cost avoidance--for each 
employee who is able to telework during continuity of operations 
situations?
    Answer. We do not have per-employee savings data.
    Question. What lessons were learned from the snow blizzard?
    Answer. In view of the extreme circumstances of the snow events, we 
made a special request to the Chief Human Capital Officers (CHCO) Act 
agencies. We sought their voluntary responses to a number of questions 
in an attempt to identify some success stories emerging from the 
events. We received replies from 19 agencies. Following are some of the 
overall results.
  --Thirteen of the respondents stated that telework was incorporated 
        into their emergency response plans. Five agencies stated that 
        telework was not incorporated into their emergency response 
        plan.
  --All agencies that said they had used telework considered it 
        effective for those individuals who had power and who had their 
        issued equipment available.
  --Agencies that had employees who teleworked experienced little or no 
        issues with telework.
  --No agencies reported that they had incorporated transportation, 
        sleeping, and food arrangements into plans for emergency 
        personnel who were required to come into work during the 
        closure event.
  --Several agencies are conducting reviews of their related plans and 
        policies after the snow closures of February 2010.
  --Several agencies are planning on expanding existing telework 
        opportunities.
    Some agencies reported that not all of their employees eligible to 
telework had brought the necessary equipment and/or work material home 
with them prior to the snow event. Several agencies noted that some 
employees were not able to telework effectively through the event as 
they did not have necessary ``hard'' files/paperwork.
    Clearly, some agencies need to do more to facilitate remote access 
by teleworking employees to files stored on their networks. Our query 
of the agencies also revealed that there are still some agencies that 
have not yet incorporated telework into their emergency response plans, 
which all agencies need to do.
    Question. Last year, OPM and other agencies (to varying degrees) 
established or refined emergency preparedness plans for the possibility 
that a pandemic flu might require social distancing and working off-
site. Did these plans enhance agencies' continuity of operations during 
the snow blizzard? If so, please elaborate. If not, what emergency 
preparedness policies and procedures might be need for future events, 
whether they are caused by natural disasters or terrorist acts?
    Answer. OPM provided guidance to agencies regarding planning for 
pandemic influenza in 2009 (see http://www.opm.gov/pandemic/OPM-
Pandemic_AllIssuances.pdf) which emphasized, among other things, the 
importance of agencies and their employees being telework ready. The 
blizzard demonstrated that agencies still have work to do when it comes 
to having the necessary infrastructure to accommodate telework during 
emergencies.
    Question. During the February snow blizzard, it was reported that 
the cost of closing the Federal government was an estimated $100 
million per day. In a radio interview during the blizzard, you 
indicated that the estimate was out of date and that a re-estimate was 
in order. What factors should be considered and what methodology would 
be used for estimating the cost of a 1-day government shutdown? Has OPM 
recalculated the cost of a 1-day government-wide closure? If so, what 
is the revised estimate? If not, when might a recalculation be 
available?
    Answer. Factors considered in estimating the cost of closing the 
Federal Government include the estimated numbers and pay grades of 
employees in the National Capital Region (the area most affected by the 
storms), less the number of emergency personnel and estimated 
teleworkers who worked during the closure. Our revised estimate of the 
cost of a 1-day Governmentwide closure is approximately $71 million.
               federal employee recruitment and retention
    Question. In January 2010, OPM released its report to Congress, 
Recruitment, Relocation and Retention Incentive--these incentives are 
often referred to as the ``3Rs.'' In calendar year 2008, 47 agencies 
spent a total of $284 million on 39,512 recruitment, relocation, and 
retention incentives for Federal employees. Would you elaborate on the 
implementation of the 3R programs?
    Answer. Agencies have used recruitment, relocation, and retention 
incentives (3Rs) to help recruit and retain Federal civilian employees 
since the authorities were originally enacted in the early 1990s. In 
May 2005, changes in law became effective that provided additional 
flexibility to grant 3Rs payments. Under OPM's regulations, agencies 
have discretionary authority to grant 3Rs payments to employees without 
OPM approval in most situations. Currently, OPM approval is required 
only for 3Rs payments in excess of the normal payment limitations 
(e.g., for retention incentive payments in excess of 25 percent for 
individual employees and 10 percent for a group of employees, up to a 
maximum payment of 50 percent) and to cover non-General Schedule 
categories of employees under the 3Rs authorities.
    Question. Are there categories of occupations and positions that 
have received the major portion of these incentives?
    Answer. In calendar year 2008, agencies typically paid 3Rs payments 
to employees in occupations critical to agency missions, such as 
healthcare, engineering, security, and information technology.
    Of the top 30 occupations that received recruitment incentives, 7 
occupations were in healthcare fields and 7 in engineering fields. The 
single occupation for which recruitment incentives were most used was 
patent examiners, who accounted for more than 11 percent of all 
recruitment incentives paid.
    Relocation incentives were spread across a wide array of 
occupations. Of the top 10 occupations for which relocation incentives 
were used, the two fields in which they were most likely to be used 
were occupations in criminal investigating and contracting, accounting 
for 7.35 percent and 6.62 percent, respectively.
    Retention incentives were primarily used to retain employees in 
healthcare occupations, accounting for 34 percent of all retention 
incentives paid. Security and engineering occupations each accounted 
for almost 8 percent of retention incentives issued. Information 
technology employees received 4 percent of retention incentives paid.
    Question. How many employees have received more than one of these 
incentives--for example, how many, if any, employees received both a 
recruitment and relocation incentive?
    Answer. OPM's regulations prohibit employees from receiving 
recruitment, relocation, and retention incentives concurrently in most 
situations. However, the regulations do not limit how many non-
concurrent incentives an employee may receive over the course of his or 
her career, provided all the regulatory criteria for these incentives 
are met. OPM is currently working with agencies to improve the quality 
and accuracy of 3Rs data submitted to OPM's Enterprise Human Resources 
Integration (EHRI) data system. Once EHRI data from agencies is 
certified to be accurate, OPM expects to be able to track trends such 
as how many employees received more than one incentive over the course 
of their career.
    Question. What improvements, if any, may be considered?
    Answer. Over the last year, OPM has led an initiative, in 
coordination with an interagency workgroup, to review existing policies 
and identify ways to improve the administration and oversight of the 
3Rs authorities. In February 2009, OPM issued a memo to agencies 
explaining what we found in our review and, as a result, we plan to--
  --Develop additional guidance and tools to help agencies write 
        stronger justifications for 3Rs authorizations, improved 3Rs 
        plans, and more explicit agency internal monitoring procedures, 
        with greater emphasis on the consideration of the costs and 
        benefits of the 3Rs;
  --Issue proposed regulations to require agencies to review all 
        retention incentives and group recruitment incentives at least 
        annually to determine whether they should be revised or 
        discontinued; and
  --Review the 3Rs data submitted to EHRI for agencies that used the 
        greatest number of 3Rs. OPM will ask agencies to validate or 
        certify the data accuracy. Once the 3Rs data is validated, OPM 
        and agencies will be better able to track 3Rs trends on an 
        ongoing basis and, if necessary, investigate any 3Rs data 
        anomaly and take corrective actions immediately.
    Question. Are there any preliminary data on the use of the 3Rs in 
2009?
    Answer. We are currently compiling the calendar year 2009 report 
from the data submitted by agencies. We expect to release the report 
later this year.
    Question. Please describe how OPM has used each of the 3Rs in your 
own organization.
    Answer. During fiscal year 2010 OPM has granted 1 recruitment and 2 
relocation incentives as a recruiting tool for some of our hard-to-fill 
positions, including a senior program director position in our USAJobs 
program office, a supervisory Criminal Investigator who was relocated 
between duty stations within OPM, and a senior Human Resources 
Specialist who was relocated between duty stations within OPM.
    Question. The Chief Human Capital Officer at the Department of 
Homeland Security has testified before Congress on the use of ``virtual 
job fairs'' to recruit employees, particularly information technology 
staff. Please explain how a ``virtual job fair'' works.
    Answer. OPM did not participate in DHS's ``virtual job fair,'' 
however, on September 14, DHS will present a briefing to OPM on its use 
of a virtual job fair to recruit top talent.
    Question. To what extent has OPM used this approach to hire 
employees?
    Answer. OPM has not used this approach to hire employees because of 
the lack of 508 compliance (an accessibility issue for individuals with 
disabilities) of ``virtual job fair'' sites. We are currently pursuing 
a 508-compliant job fair site, and when funds become available, we plan 
to pursue the purchase of such a site.
    Question. What safeguards are in place to ensure that the merit 
system principles codified in Title 5 are upheld?
    Answer. As with any recruitment and hiring activity, agencies must 
ensure their practices are in conformance with the merit system 
principles, as well as with all other applicable provisions of title 5. 
In addition, OPM, in its oversight role, will hold agencies accountable 
for compliance with the laws and regulations governing recruitment and 
selection.
    Question. Has the economic downturn slowed the rate of retiring 
Federal employees?
    Answer. We are not able to determine the specific impact of the 
recession on the rate of retirement among Federal employees. However, 
we do have historical data as shown with regards to the number of 
employees added to the retirement roll each year since 2000 which may 
be useful to provide some perspective on the trends in retirement of 
Federal employees.

------------------------------------------------------------------------
                                                               Total
                       Fiscal year                          retirements
------------------------------------------------------------------------
2000....................................................          77,383
2001....................................................          77,330
2002....................................................          74,153
2003....................................................          81,128
2004....................................................          90,441
2005....................................................          94,977
2006....................................................         103,292
2007....................................................          92,349
2008....................................................          86,615
2009....................................................          87,907
------------------------------------------------------------------------

     Question. What is the current projection for the retirement of 
baby boomers?
    Answer. It is difficult to make projections regarding retirements 
due to the variety of factors that go into retirement decisions (i.e. 
the economy, retirement savings). Accordingly, OPM is not currently 
able to provide specific projections regarding the retirement of baby 
boomers in the Federal workforce.
    Question. What guidance, if any, does OPM provide to departments 
and agencies to ease the expected retirements of baby boomers in the 
next 5 years?
    Answer. To ease the expected effect of retirements, OPM supports 
knowledge transfer from one generation of leaders to the next 
generation of leaders. OPM has submitted a legislative proposal that 
would allow Federal employees covered by the Civil Service Retirement 
System or the Federal Employees Retirement System to enter a phased 
retirement status at the end of their careers, under certain 
circumstances. This would enable agencies to retain the services of 
highly valued and experienced employees for longer periods than they 
would otherwise be able to. This proposal would require that part of 
the individual's time be spent mentoring other employees.
    To prepare for an increase in the number of retirements from the 
Federal Government, OPM works with agencies to assess leadership needs 
and use current leaders to prepare new and emerging leaders for future 
assignments and roles. The following are some examples of recent OPM 
programs and activities:
  --OPM hosted a best practices forum on mentoring when our ``Best 
        Practices in Mentoring'' booklet was made available to agencies 
        through the OPM website. OPM participated in a mentoring forum 
        conducted by and for the Intelligence Community.
  --OPM is working with agencies to develop an executive on-boarding 
        framework. A forum was held for agencies to investigate methods 
        and techniques to better prepare new Federal executives for 
        successful executive careers. For example, the National Science 
        Foundation has initiated a pilot on-boarding program, which 
        includes a letter from the outgoing executive to his or her 
        successor, among other features.
  --OPM is developing a wiki that will facilitate knowledge sharing for 
        the training and development community. The wiki will debut 
        with five initial topics later this summer.
  --OPM facilitates knowledge management by hosting best practices 
        forums or webcasts. Webcasts on leadership development programs 
        have been offered, which are recorded for posting on OPM's 
        YouTube channel.
  --Best practices forums are hosted quarterly for performance 
        management and executive resources practitioners. At these 
        forums, OPM provides agencies with guidance and advice. 
        Agencies, in turn, present information on their best practices 
        on a wide variety of topics, including their Senior Executive 
        Service (SES) career development programs, diversity, and 
        leadership succession management.
  --In the Guide to Strategic Leadership Succession Management Model, 
        OPM provides recommendations for assessing executive workforce 
        needs, projecting attrition, and designing strategies for 
        meeting staffing needs. These guidelines are followed by 
        agencies in the preparation of their Strategic Leadership 
        Succession Plans and their Human Capital Management Reports.
  --Through the Federal Executive Institute in Charlottesville, 
        Virginia, OPM offers a course entitled ``Leaders Growing 
        Leaders; Building Your Organization by Developing Leaders at 
        Every Level.'' The course offers participating executives the 
        opportunity to gain experience practicing informal roles as 
        exemplar, mentor, coach, and teacher to help cultivate the next 
        generation of leaders. Participants also learn how to frame 
        their life and work experiences as stories to help others learn 
        leadership lessons.
    Question. The government-wide website, USAjobs.opm.gov, has been 
reconfigured. Please discuss the improvements, if any, to the website.
    Answer. The refreshed USAJOBS site enhances the user experience by 
updating the look and feel, including introducing social media and 
increased personalization; improving site navigation, making it easier 
to move about the site; enhancing the job search tool so applicants 
find the right job for them; streamlining employment information to 
ensure guidance is readily available; and providing targeted resources 
for those with special needs (students, executives, veterans, and 
individuals with disabilities). Also, applicants can now email their 
resumes that they created using the USAJOBS resume builder.
    Question. Are there enhanced features to assist veterans and 
persons with disabilities in their job search?
    Answer. All veterans' employment information has been consolidated 
onto one site (www.fedshirevets.gov). A resume mining capability has 
been added for preference eligible veterans and 30 percent or more 
disabled veterans.
    For persons with disabilities, a new page has been added to USAJOBS 
with information that includes tips for applying competitively or under 
the Schedule A appointing authority. Template letters have been created 
for download, to be used when applying under Schedule A.
    Question. What partnerships have OPM formed to reach out to college 
campus to recruit the best talent to public service? Have these efforts 
been successful?
    Answer. In January 2010, OPM created a Student Programs Office to 
promote innovative and coordinated approaches to recruiting and hiring 
students into the Federal Government. A significant part of this new 
office's role involves collaborating with academia and other 
organizations focused on the recruitment of students and recent 
graduates into the Federal service.
    Through the Call to Serve initiative, OPM works in collaboration 
with the Partnership for Public Service to educate a new generation of 
leaders about the importance of a strong civil service, help re-
establish links between Federal agencies and college campuses, and 
provide students with information about Federal jobs. Through this 
network, we are able to reach more than 700 schools and more than 75 
Federal agencies. Throughout the year, we nurture these relationships 
by providing training workshops, a Federal Service Summit, best 
practices, and other key resources relating to Federal employment.
    In addition to the Call to Serve initiative, OPM has worked with a 
variety of colleges and universities nationwide to promote the Federal 
Government as an ideal place to work. Earlier in fiscal year 2010, we 
sponsored five Federal Career Days--at Johns Hopkins University, City 
College of San Francisco, Massachusetts Institute of Technology, 
University of New Mexico, and Rutgers University--to showcase the 
Federal Government as the most dynamic and progressive employer in the 
country as well as a ``cool'' place to work. These schools offer strong 
curricula relating to Federal agency mission-critical occupations and 
demonstrate a willingness to promote Federal employment opportunities 
for their students. In addition to the Federal Career Days, we have 
partnered with, and participated in many events at, other colleges, 
universities and organizations that have key roles in attracting a 
diverse student population into the Federal workforce. Over the past 
fiscal year, these have included the American Society of Public 
Administration, National Association of Colleges and Employers, 
Government College Relations Council, Federal Employed Women, League of 
United Latin American Citizens, Southeast Federal Recruiting Council, 
Hispanic Association of Colleges and Universities (HACU), and Gallaudet 
University.
    Finally, in 2010 the Presidential Management Fellows (PMF) Program 
expanded its outreach to over 30,000 graduate school contacts across 
the country. This outreach included e-mail blasts, campus visits, 
presentations, and partnering with associations. Recently, OPM Director 
John Berry approved a variety of reinvigoration efforts to enhance the 
PMF Program:
  --Increasing investment in the assessment process to improve the 
        quality of PMF finalists. For the upcoming PMF Class of 2011, 
        we are enhancing the PMF assessment process to improve both the 
        quality of finalists and the applicant experience.
  --Improving the PMF Program experience. The Program is in the process 
        of creating ``PMF Power Packs,'' consisting of current PMFs, to 
        work on 5 program areas: (1) diversity outreach, (2) 
        development of a new orientation program ``for PMFs, by PMFs'', 
        (3) assistance with the new assessment process, including 
        logistics, event planning, and coordination of the in-person 
        phase, (4) development of a job-matching process for PMF 
        finalists, and (5) creation of an alumni program.
  --Increasing outreach efforts through strategic partnerships. This 
        includes work with organizations such as the National 
        Association of Schools of Public Affairs and Administration 
        (NASPAA), National Association for Equal Opportunity in Higher 
        Education (NAFEO), HACU, etc., to create a marketing and 
        outreach plan to reach all segments of society. Many Federal 
        Executive Boards (FEBs) also reach out to local colleges and 
        universities to share information on Federal employment.
    As a result of the aforementioned efforts, we have witnessed an 
increase in the number of students and recent graduates entering the 
Federal Government through Governmentwide student programs and the PMF 
Program. The PMF Program experienced a 70 percent increase in its 
number of applicants over the number of PMF applicants from 2009. In 
2009, we had approximately 500 Fellows appointed in Federal agencies, 
representing the highest number of Fellows appointed in the history of 
the program. We are expecting even more in 2010.
                           work-life programs
    Question. What amount and percentage of the OPM budget is allocated 
for administration of work/life programs? How many full-time 
equivalents (FTEs) are associated with this function? What are the two 
most important issues facing the Federal workforce in terms of work/
life issues and what are OPM plans to address these concerns?
    Answer. Of OPM's budget of $905 million, 0.42 percent is allocated 
for the Governmentwide oversight of work/life programs. There are 
currently 6 FTEs allocated for this function.
    The two highest priority issues are the Federal telework program 
and employee health and wellness. OPM Director John Berry has shown his 
commitment to these two areas by establishing a high priority 
performance goal for each.
    The goal for telework is, by the end of fiscal year 2011, to 
increase by 50 percent the number of eligible Federal employees who 
telework over the 2009 baseline of 102,900.
    Key components of OPM's strategy to meet this goal include: working 
with agencies to make sure they have effective telework policies that 
translate into successful programs; and developing high-quality and 
broadly accessible telework training.
    The goal for health and wellness is, by the end of fiscal year 
2011, for every agency to have established and begun to implement a 
plan for a comprehensive health and wellness program which will achieve 
a 75 percent participation rate. Key components of OPM's strategy to 
meet this goal include: providing guidance to Federal agencies on what 
constitutes a comprehensive health and wellness program and criteria 
for assessing the adequacy of agency plans; and producing a training 
package aimed at employees and managers that agencies can use to inform 
their employees of the value of health and wellness programs.
    Another area that we believe to be an important issue facing 
Federal employees is dependent care. The range of dependents for which 
employees are expected to provide support, and the range of support 
necessary for those individuals, is broad. More than half of Federal 
employees fall into the age category of adult Americans who are caring 
for both elders and children. Providing support through workplace 
programs allows Federal employees convenient access to supports and 
resources, and facilitates productivity while at work.
    OPM's plans to address the dependent care needs of Federal 
employees include providing: training and resources for Federal work/
life staff; networking opportunities for agency work/life staff; and 
guidance documents and handbooks.
    Question. Some versions of the healthcare reform legislation would 
assign a role to OPM regarding benefit negotiations and administration 
with health insurance providers for plans. How many FTEs and 
appropriated monies currently support Federal Employee Health Benefit 
Program (FEHBP) administration functions in OPM?
    Answer. Currently, OPM is appropriated approximately $11.7 million 
to administer the FEHBP, with approximately 90 FTEs. This does not 
include the support of the Office of Inspector General, which is 
responsible for auditing FEHBP health plans. It also does not include a 
proportionate share of accounting or legal services.

                          [Dollars in millions]
------------------------------------------------------------------------
                                           Appropriated
                                               Money            FTE
------------------------------------------------------------------------
Policy, including Office of the Actuary.            $5.5            22.1
Operations..............................             6.2            68.0
                                         -------------------------------
      Total.............................            11.7            90.1
------------------------------------------------------------------------

    Question. What staff would need to be hired and what additional 
expertise would be needed if the OPM role were expanded in this area? 
How would this added role affect OPM's performance of its core mission?
    Answer. The Patient Protection and Affordable Care Act (Public Law 
111-148), enacted March 23, 2010, gives OPM additional health insurance 
plan oversight and administrative responsibilities. Under section 1334, 
OPM will contract with health insurance issuers to offer at least 2 
multi-State health plans through each State Health Insurance Exchange. 
The Exchanges will make available qualified health plans, including 
multi-State plans, to the general public beginning in 2014.
    This added role will not have any effect on OPM's performance of 
its current core mission. OPM will need to develop the capacity, 
including additional staff, to manage the Multi-State Plan option(s) 
that will be available via State exchanges in 2014. Development of such 
capacity includes examining the interaction between multi-State plan 
requirements and State insurance regulations, analyzing potential 
enrollee demographics and utilization patterns, and modeling potential 
premium costs. Work over the next several months will focus on shaping 
the OPM role with the Multi-State Plan option from the framework 
outlines presented in the new law and identifying the institutional 
support that OPM will require to develop and manage this program from 
2010 to 2014.
    Question. OPM has announced that it is revamping the human capital 
survey that is designed to gauge Federal employee views on a variety of 
key Federal workforce practices on an annual basis. What are the 
significant changes/enhancements in the survey methodology? Will the 
data be disaggregated to allow for a more in-depth look into the views 
of employees in various offices and units of a department rather than 
just the department as a whole?
    Answer. Starting in 2010, OPM plans on administering the Federal 
Employee Viewpoint survey annually to fulfill the growing need for 
Governmentwide standardized data. While changes to the survey in regard 
to content, process, and depth of reporting are currently being planned 
for the future, some minor changes were made to the FedView survey for 
2010 administration. The survey was revised to add items in the areas 
of employees' work experience, supervision, leadership, and work/life 
issues.
    In addition, OPM decided to move questions on Governmentwide 
benefits, like life insurance, health insurance, and retirement, to a 
separate survey; most agencies supported these changes. OPM already 
provides data below department or agency-wide level to allow visibility 
into the perceptions of employees within major organizations and 
subdivisions, and OPM works with agencies to support their needs for 
specialized views or cuts of survey results. In all cases, OPM ensures 
the identity of individual respondents is protected.
              federal employees and government procurement
    Question. Within the government procurement community, the state of 
the acquisition workforce is of great interest. Generally, it is 
understood that the acquisition workforce as a whole--which is dealing 
with complex acquisitions and increased government procurement 
spending, and learning new acquisition methods--is undermanned and 
undertrained. How is OPM assisting the Office of Federal Procurement 
Policy, and other Federal agencies, in bolstering the government's 
acquisition workforce?
    Answer. OPM has designated the 1102 Series as a Governmentwide 
mission-critical occupation. OPM's shared registers include the 
contracting series. We also assist agencies with employees in the 1102 
Series in providing fiscal year reporting for OFPP on the 1102 Series 
workforce strength and 5-year projections of attritions and accretions.
    Agency reporting includes:
  --Resource data for entry-, mid- and senior-level as part of the 
        measures reported for each agency's annual Human Capital 
        Management Report.
  --Target acquisition workforce profile and actual attrition at the 
        end of the reported measurement year.
  --Comparison of current workforce targets with actual population to 
        determine gaps or surpluses.
  --Workforce targets and projected attrition for the next fiscal year 
        (short-term goal).
  --Workforce targets and projected attrition for an additional 4 
        fiscal years in the future (long-term goal).
     Agencies this year were to establish targets and project attrition 
for fiscal year 2010 and fiscal year 2014. Agencies were also to report 
their current population and certifications as of the end of fiscal 
year 2009. OPM will continue to work with agencies and assist them with 
efforts to provide accurate and complete reporting.
    Question. What hiring authority flexibilities can agencies use to 
hire acquisition professionals in a timely fashion?
    Answer. From September 30, 2007, through September 30, 2012, 
agencies have direct hire appointing authority for certain Federal 
acquisition-related positions, such as entry-level and senior 
contracting positions and all purchasing positions.
    Through December 31, 2011, agencies are also authorized to reemploy 
annuitants in the acquisition-related positions mentioned above without 
offsetting their salaries, as is normally required when reemploying 
annuitants. Agencies' decisions to use this authority must be based on 
the unusually high or unique qualifications of an individual, 
exceptional difficulty in recruiting or retaining a qualified employee, 
or a temporary emergency hiring need, which makes the reemployment of 
the individual essential.
    Question. What constraints exist, if any, that might impede 
agencies' efforts to hire and train individuals for their contracting 
offices?
    Answer. One constraint is the challenge of accurately projecting 
future workforce needs. This depends, in part, on how many positions 
are defined as having ``inherently governmental'' functions. The 
definition of ``inherently governmental'' affects the workload of 
contract specialists and informs agencies' decisions regarding the 
number of positions they need to fill. A strong desire to avoid over-
hiring can also complicate workforce planning efforts.
    In addition, Federal contracting is quite technical and requires 
in-depth knowledge of Government policy and regulations, as well as 
substantial training and experience to be fully productive. Effective 
training programs that are adequately resourced are essential. 
Moreover, once their contract specialists are trained, Federal agencies 
face competition from non-Federal employers willing to pay more for 
employees with Federal work experience and training and credentials.
    Question. As the Director of the Office of Management and Budget 
noted in a July 2009 memorandum, ``[f]ederal agencies use both Federal 
employees and private sector contractors to deliver important services 
to citizens.'' His memorandum also stated that overreliance on 
contractors ``can lead to the erosion of the in-house capacity that is 
essential to effective government performance,'' and counseled that 
achieving the best mix of Federal employees and contractor employees 
can be accomplished by identifying the proper role of each sector. What 
is the human resources perspective on the multisector workforce?
    Answer. We believe an effective balance between Federal employees 
and contractors can be achieved by taking into account strategic human 
capital planning, the concept of ``inherently governmental function'' 
and ``critical function'' and effective talent management.
  --Strategic human capital planning is essential to an understanding 
        of the full picture of workforce requirements for mission 
        accomplishment.
  --The concept of ``inherently governmental'' function and 
        ``critical'' function must be clearly understood and properly 
        applied to ensure inherently governmental functions are 
        performed only by Federal employees and critical functions are 
        performed by Federal employees to the extent necessary to 
        ensure the government maintains control of its mission and 
        operations.
  --Effective talent management strategies should be used (including 
        effective recruiting and retention strategies) to ensure that 
        agencies have adequate numbers, and the right skill mix, of 
        employees to accomplish the mission.
    Question. What are some of the issues that an agency might 
encounter when it has Federal employees and contractor employees 
working side-by-side?
    Answer. Many of the issues that arise when Federal employees and 
contractors have been working side by side concern differences in 
systems for pay and reward, discipline, and termination, as well as 
general ethical considerations (including organizational and personal 
conflicts of interest). Some examples of these differences include:
  --Contractor employees are not subject to the various laws governing 
        Federal employment, which impose various protections and 
        restrictions.
  --There are generally no limits on the compensation that may be 
        provided to contract employees, while Federal employees 
        generally are subject to compensation limits. If contract 
        employees are paid at higher rates than Federal employees 
        providing similar services, this could create morale problems 
        within the Federal workforce. It could also lead to Federal 
        employees leaving Federal service to accept contract jobs.
  --A retired Federal employee who works for the agency as a contractor 
        will receive his or her full annuity whereas that same retired 
        employee would be subject to the reemployed annuitant salary 
        offset if working for the agency as a rehired annuitant unless 
        a waiver is granted. The difference in how retirement is 
        treated in these scenarios could be viewed as inequitable.
    Question. What steps can agencies take to maintain a clear 
distinction between the management of its own employees and the 
management of contractor employees? That is, how can agencies avoid the 
appearance of a supervisor-employee relationship between agency staff 
and contractor employees?
    Answer. The agency should take appropriate steps to ensure its 
employees are made aware when contract employees are performing work 
onsite, such as to provide professional and technical services. Such 
steps might include requiring contractor employees to wear distinctive 
badges, work in clearly identified work areas, and use e-mail addresses 
that clearly identify their status as contractors. In addition, 
agencies should ensure their employees are not directing the work of 
contractor employees but instead that agency contracting officials are 
giving direction to the contract supervisor.
    Question. Under Office of Management and Budget Circular A-76, 
agencies may conduct public-private competitions to determine who--
Federal employees or contractor employees--will perform work that 
agency employees had been doing. When a competition results in the 
awarding of a contract to a company, the Federal employees are no 
longer needed in that function. While it is possible that at least some 
of the agency employees will be hired by the contractor, there is no 
guarantee that this will happen. What role, if any, has OPM played in 
public-private competitions conducted by other agencies?
    Answer. There have been no recent public-private competitions, in 
part as a result of a statutory moratorium on public-private 
competition. However, in past years, when agencies conducted public 
private competitions under OMB Circular A-76, OPM worked with agencies 
to provide soft landings for affected employees both where work was 
converted to private sector performance as well as where work was 
retained in-house but involved a reduction in labor. These efforts 
included consideration of buyouts and early retirements under OPM's 
Voluntary Early Retirement Authority (VERA) and the Voluntary 
Separation Incentive Payments (VSIP) Program. OPM's regulations govern 
how the agency's workforce is reduced because of that decision. General 
and detailed restructuring guidance material is available on OPM's 
website, and we offer on-site assistance through our reimbursable 
services staff.
    Question. Generally speaking, what options are available to Federal 
employees who have been displaced by the outcome of a public-private 
competition?
    Answer. If a permanent Federal employee is separated because of the 
contracting decision, the employee may be eligible either for 
retirement benefits if the employee meets the age and service 
requirements, or for severance pay.
    The employee is entitled, by regulation, to reemployment priority 
in his or her former agency for 2 years to positions at the same or 
lower grade and in the same commuting area. Qualified employees are 
offered reemployment based on their tenure and veterans' preference. A 
displaced employee is also entitled by regulation to selection priority 
for 1 year to positions in other agencies at the same or lower grade in 
the same commuting area. This program requires former employees to 
apply for positions matching their skills and to be well-qualified for 
the positions. Both of these programs provide selection priority over 
candidates from outside the agency's permanent workforce.
    Question. How might OPM track Federal employees who have been 
displaced?
    Answer. OPM can track, through the Central Personnel Data File, 
those employees who were separated because of a decision to contract 
the work under OMB Circular A-76.
                       federal pay and furloughs
    Question. Discussions of Federal pay rates have been prominent in 
the news of late with the USA Today articles presenting Federal and 
private sector pay comparisons and CNBC commentary calling for salary 
rollback. What is OPM's response to these viewpoints?
    Answer. We have been closely following stories of Federal pay 
during the last few months. However, we view reports published by USA 
Today, the Cato Institute, and the Heritage Foundation critical of 
Federal workers as simplistic and misleading. Average salary 
comparisons as published by the Cato Institute and others ignore the 
huge differences in the occupational makeup of the Federal and non-
Federal workforces; they do not reflect the complexity of the work, 
level of skill and education required, scope of responsibility/impact, 
special requirements such as security clearances, or the location where 
the work must happen.
    On average, positions in the Federal government generally have a 
higher level of education than the private sector positions. About 19 
percent of Federal workers have a master's degree, professional degree, 
or doctorate versus only 11 percent in the private sector. A full 48 
percent of Federal employees have at least a college degree compared to 
32 percent in the private sector. For example, the two largest private-
sector occupations today are retail salesperson and cashier, low-paid 
occupations not found in Federal service. In contrast, the vast 
majority of Federal workers are in professional, administrative, and 
technical occupations that are well-paid in the private sector. Job-by-
job comparisons published by USA Today are based on data published by 
the Bureau of Labor Statistics (BLS), but the data are improperly used. 
The Federal Government uses recognized statistical methods and 
professionally conducted pay surveys. BLS economists, working with OPM, 
have thoughtfully and carefully compared occupations in the Federal and 
non-Federal sectors for more than 50 years to provide Government 
policymakers with factual information in making their decisions on 
Federal employee salary levels.
    When taking into account factors such as differences in 
occupational mix, geographic distribution, and level of work, we 
believe reports finding that Federal workers are paid substantially 
more on average than similarly situated non-Federal workers are false 
comparisons.
    Question. In early 2009, you discussed sending a legislative 
proposal to reform Federal pay setting to Congress. What is the status 
of this proposal and what are likely to be the key components of any 
pay reform?
    Answer. We continue to believe that reform of Federal personnel 
systems is vital, but based on experience and research in this field, 
especially given the current fiscal situation, we feel it makes more 
sense to focus now on enhancing the quality of employee reviews and 
feedback so they are more helpful and fair.
    Question. The Department of Transportation had to furlough some 
employees recently because of an interruption in its appropriated funds 
during debate of a bill that would have extended funds for the National 
Highway Trust Fund on a short-term basis. What have other departments 
and agencies been reporting to OPM about the possibility of furlough 
actions this fiscal year?
    Answer. We do not have any information from agencies regarding 
possible furlough actions this year.
    Question. What specific guidance has OPM provided proactively to 
the departments and agencies both in general and specifically with 
regard to mechanisms that might provide alternatives to furloughs?
    Answer. OPM provides guidance to agencies for options on how to 
reduce budgetary outlays in order to avoid or minimize the likelihood 
of furloughs or other actions such as reduction in force.
    OPM's guidance notes that furlough is not a viable option if the 
agency is faced with a continuing, rather than temporary, lack of work 
and/or funds. For example, an agency may furlough an employee under the 
reduction-in-force regulations only when the agency plans to recall the 
employee to duty within 1 year in the position the employee held when 
furloughed.
    Also, the fiscal savings from a furlough are sharply reduced when a 
furloughed employee becomes eligible for unemployment compensation that 
must be paid by the agency. For example, an employee who is furloughed 
for 5 or more consecutive days is generally eligible for unemployment 
compensation.
    Finally, because furlough is a temporary situation, voluntary early 
retirement authority (VERA) and voluntary separation incentive payments 
(VSIP) are not an option to lessen the impact of furlough on the agency 
and its employees. VERA and VSIP are available only when an agency is 
undertaking long-term restructuring actions.
    Question. Which departments and agencies are in the forefront with 
effective workforce planning models and what specific features of such 
workforce planning could be applied across the Federal Government?
    Answer. Several agencies, including the Departments of State, the 
Department of Transportation, and the Nuclear Regulatory Commission, 
have consistently demonstrated effective workforce planning. These 
agencies have a defined governance structure for the workforce planning 
function, a systematic process that is used for workforce analyses, and 
they use automated tools for analyses and staffing projections. All of 
these agencies have a seamless integration of the strategic human 
capital planning and workforce planning activities.
                   opm's strategic plan for 2010-2015
    Question. As stated prominently on the OPM website, OPM's mission 
is Recruiting, Retaining and Honoring a World-Class Workforce to Serve 
the American People. What are the most pressing challenges for OPM in 
the next fiscal year?
    Answer. As the Director stated in his testimony and as are 
reflected in OPM's High Priority Performance Goals, the agency's fiscal 
year 2011 budget request reflects the strategic goals for the agency: 
Hire the Best, Respect the Workforce, Expect the Best, and Honor 
Service. These guiding principles also represent the most pressing 
challenges for OPM in achieving the vision of making the Federal 
government a model employer for the 21st century.
    The current Federal hiring process is cumbersome and slow, 
frustrating managers and discouraging many talented individuals, 
including veterans, from considering Federal jobs and opportunities. 
OPM is also challenged to promote greater diversity and inclusion in 
the Federal workforce. The development of Government-wide training, 
health and wellness policies and programs to provide employees with a 
meaningful balance of work and life is another challenge that must be 
faced to improve Federal government performance.
    The Federal Government's retirement systems face significant 
challenges and are at high risk of failure due to technology gaps. 
These challenges have been identified in numerous OPM and GAO reports 
and improvements are needed to ensure that employees' claims are 
settled timely and accurately.
    Question. What initiatives or improvements are needed to address 
these challenges? What are the costs of these initiatives?
    Answer. As stated in the Director's testimony, the Administration 
believes that reforming the Federal hiring process is an urgent 
priority to attract the best and brightest talent into the workforce. 
OPM's fiscal year 2011 budget requests $4,000,000 in order to promote 
innovative and coordinated approaches to help agencies streamline their 
end-to-end hiring process. OPM is also committed to increasing 
employment outreach to veterans. OPM has requested $2,400,000 in fiscal 
year 2011 to advance efforts to reduce barriers to entry for Veterans 
and transitioning service members pursuing careers in the Federal civil 
service.
    OPM has initiated the Retirement Systems Modernization (RSM) 
program to modernize and automate retirement processes to ensure 
Federal retirees and annuitants are paid accurately, timely, and 
receive high-quality customer service. OPM has requested $1,500,000 to 
stabilize the retirement systems in fiscal year 2011, with a focus on 
upgrading the retirement calculator, transitioning from a paper-based 
operation to an automated retirement process, and implementing an 
online retirement application tool. OPM has also requested an 
additional $2,800,000 to increase retirement claims processing staffing 
levels and assist in reducing the claims processing times.
    Question. Would you describe the key components of OPM's recently 
released, A New Day for Federal Service, Strategic Plan 2010-2015?
    Answer. The strategic plan positions the agency to make the Federal 
government America's model employer. The plan outlines four broad 
strategic goals that define OPM's direction for the next 6 years in 
order to achieve its mission to Recruit, Retain and Honor a World-Class 
Workforce to Serve the American People.
    The key components of the plan are the strategic goals that have 
been designed to assist agencies in enhancing the experience as 
individuals moves from applicant to Federal employee to retiree. The 
``Hire the Best'' strategic goal concentrates on improving the Federal 
hiring process. The focus of the ``Respect the Workforce'' strategic 
goal is on employee retention through training and work-life 
initiatives. OPM's ``Expect the Best'' strategic goal strives to 
provide the tools and resources necessary for employees to perform at 
the highest levels while stressing accountability. Finally, the ``Honor 
Service'' strategic goal seeks to recognize the service of Federal 
employees through well-designed and well-administered compensation and 
retirement benefits programs.
    Question. How will the fiscal year 2011 budget request specifically 
address each of the strategic plan's goals?
    Answer. Each of the strategic goals is related to OPM's major 
performance improvement initiatives reflected as in the budget request:
  --Hire the Best.--Funding requested will be used to reform Federal 
        government recruiting and hiring policies, programs and 
        procedures. The initiative will better enable agencies to 
        recruit and hire qualified students, mid-career professionals, 
        and retirees. OPM will continue efforts to revamp the USAJOBS 
        website, building on improvements that have already been made 
        to make the site more user-friendly and aligned with the Hiring 
        Reform initiative. The budget request supports ongoing 
        Administration efforts to assist veterans to find opportunities 
        in the Federal workplace, and to promote diversity in the 
        Federal workforce. Finally, the request continues efforts to 
        have the information they need to make timely decisions on the 
        credibility and suitability of Federal employees, contractors, 
        and military members.
  --Respect the Workforce.--The budget request calls for the Federal 
        government to invest in its employees in order to improve the 
        results of Federal programs and services. The development of 
        Government-wide health and wellness policies and programs to 
        provide employees with a meaningful balance of work and life 
        will continue to be a top priority in fiscal year 2011 in order 
        to help continue to attract the best and the brightest for 
        Federal employment. Focus will continue on the importance of 
        training throughout an employee's career, as well on programs 
        and initiatives such as alternative work schedules, telework, 
        and employee assistance programs that benefit current employees 
        and help us continue to attract the best and brightest for 
        Federal service. Resources will also help continue efforts to 
        encourage labor-management collaboration in the furtherance of 
        agencies' goals.
  --Expect the Best.--Funds requested in the fiscal year 2011 budget 
        will support OPM's responsibilities to advise and assist 
        agencies on strategic human resources management. This includes 
        operational activities to monitor compliance with civil service 
        laws and regulations, ensure appropriate use of flexibilities 
        and authorities, and providing agencies with tools, resources, 
        guidance, education, and evaluation to continuously improve 
        their human resources operations.
  --Honor Service.--The budget request addresses the strategic goal to 
        honor the service of Federal employees by ensuring timely and 
        accurate delivery of OPM-administered retirement and insurance 
        benefits for 2 million Federal retirees. Continued funding for 
        the Retirement Systems Modernization (RSM) program will go 
        toward priorities like upgrading the retirement calculator, 
        automating the manual paper-based retirement system, and 
        imaging incoming paper retirement records. The implementation 
        of an online retirement application tool for gathering initial 
        retirement information electronically from service centers will 
        help improve the accuracy of retirement calculations. 
        Altogether, these initiatives will help to ensure that OPM and 
        agency benefits officers have access to information necessary 
        to perform their duties of processing claims and providing 
        customer service to employees and annuitants.
         national council on federal labor-management relations
    Question. In December 2009, President Obama issued an Executive 
Order (EO), Creating Labor-Management Forums to Improve Delivery of 
Government Services, which created the National Council on Federal 
Labor-Management Relations. The Council will support the creation of 
labor management forums across the Federal government to allow agency 
managers, employees, and union representatives to discuss agency 
operations in a non-adversarial setting. How will the Council ensure 
that the forums result in the implementation of productive ideas and 
innovation among Federal agencies?
    Answer. The Executive order required each agency to develop, and 
submit for certification, a written implementation plan which 
addressed, among other things (1) how the agency would conduct a 
baseline assessment of the current state of labor relations and (2) how 
the agency will develop metrics to monitor improvements in such areas 
as productivity gains and cost savings resulting from establishment of 
labor-management forums. The achievement of productivity gains and cost 
savings is clearly dependent on the adoption of productive ideas and 
innovation by agencies. The operation and effectiveness of these forums 
will be monitored both internally by agencies and externally by the 
Council. As discussed below, the Council has adopted general 
recommended metrics and has established a work group on metrics, which 
is developing more detailed and focused metrics for agencies to use.
    Question. Did all Federal agencies meet the March 9 deadline to 
submit plans to create labor-management forums?
    Answer. While not all Federal agencies met the March 9 deadline to 
submit plans, all but a handful of agencies did submit plans by early 
April, and plans were received from all agencies by early May.
    Question. How many of the plans have been certified? What are the 
issues in certifying the plans?
    Answer. Fifty of the 51 agency plans have been certified by the 
Council. At the request of the National Council, SSA submitted a 
revised implementation plan on July 23, 2010. The National Council is 
currently evaluating that plan, and working with the agency on 
certification.
    Question. At this point, what measures has the Council developed to 
ensure that these labor-management forums will improve efficiency in 
government operations and improve services to clients?
    Answer. At its initial meeting in February, the Council adopted 
recommended categories of metrics for agency use in establishing and 
implementing forums. Those metrics were organized under three broad 
goals, the first and most important one being improvement in the 
agency's ability to accomplish its mission and deliver high-quality 
products and services to the public. At its May meeting, the Council 
established a work group to develop more detailed metrics. That work 
group has held a number of meetings, will be collecting information 
from and drafting guidance for the forums, and expects to make 
recommendations for the full Council to adopt this fall.
    Question. How can you ensure that these councils will improve 
government operations and services to clients?
    Answer. The LMF metrics working group is currently exploring 
practical answers to this question--to figure out what and how to track 
and measure to learn from each LMF experience and apply those lessons 
to improving government operations and services. We recognize that the 
overriding reason for creating labor-management forums is ``to improve 
the productivity and effectiveness of the Federal Government,'' and we 
are confident this goal will be achieved.
                federal long-term care insurance program
    Question. The Federal Long-Term Care Insurance Program (LTC) 
insurance program has entered a new contract cycle and OPM has notified 
Federal workers enrolled in the Automatic Compound Inflation Option 
(ACIO) (about 60 percent of enrollees) that their premiums will 
increase 25 percent from current rates. At congressional hearings last 
fall, OPM acknowledged that the marketing materials used during the 
first contract cycle could have misled enrollees in assuming that 
premiums would not increase in the future if that option was chosen. 
What processes and procedures does OPM have in place to ensure that 
this does not happen again?
    Answer. New educational and marketing materials, along with new 
applications, were introduced in October 2009. These materials more 
prominently and frequently describe the conditions under which premiums 
may increase and that premiums are not guaranteed, including in the 
sections that describe the different types of inflation protection. We 
are also planning new marketing materials and application forms for an 
open season which we expect to hold in the spring of 2011. We are 
committed to making any other changes needed to make the rate 
information clear to current and prospective enrollees.
    As an example of what we have done, every enrollee not eligible for 
or receiving benefits (e.g., not in a nursing home) received a decision 
package in late 2009 outlining options for moving to the new plan 
design or avoiding the premium increase (for those facing an increase). 
The decision package included background material illustrating the 
difference over time between a 4 percent and a 5 percent compound 
benefit increase. Historical inflation increase data were also 
provided. Modeling tools were available online to allow enrollees to 
project the growth of their current daily benefit under each inflation 
rate. The decision packages also contained detailed comparisons of 
specific benefits and the differences between the original plan, FLTCIP 
1.0, and the new plan, FLTCIP 2.0.
    In addition, the materials for the new FLTCIP 2.0 benefits are 
currently online at www.ltcfeds.com and available by request from LTC 
Partners. The new materials, both in hard copy and online, provide 
detailed information and graphs that illustrate the difference over 
time between 4 percent and 5 percent compounded benefits, as well as 
detailed information about other benefit decisions.
    The new educational materials state prominently and frequently that 
premiums are not guaranteed, and they explain the conditions under 
which premiums may increase. In addition, the Agreement and 
Acknowledgement section of the application, which requires the 
applicant's signature, discloses that premiums are not guaranteed. The 
new Benefit Booklet (the contractual statement of benefits) contains on 
the second page a section titled, ``When We May Increase Your Premium'' 
and discloses in several other places that premiums are not guaranteed. 
All current and future enrollees will receive a copy of this new 
Benefit Booklet.
    Finally, Long Term Care Partners conducts hundreds of educational 
seminars each year at Federal agencies and meetings of Federal employee 
groups like the National Active and Retired Federal Employees 
Association (NARFE). They keep in frequent contact with Agency Benefit 
Officers to make sure information about the FLTCIP is widely available. 
Enrollees and prospective applicants can call Long Term Care Partners 
toll-free to speak with a Certified Long Term Care Consultant for 
expert assistance in learning about the Program.
    Question. Since the stated purpose of the Federal LTC Insurance 
program was to encourage people to purchase long-term care insurance 
and serve as a model for other employer-sponsored programs across the 
Nation, how does OPM intend to restore confidence in the program among 
Federal workers and to promote future participation given this issue?
    Answer. OPM conducts close contractual oversight of the carrier, 
which means we can shape the LTC policies and products. OPM includes 
the NAIC Shoppers Guide to Long Term Care Insurance in the Information 
Kit provided to all applicants who request a hard copy application. 
This Guide is also available online as part of the online application 
process. OPM also requires its insurer to price its premiums according 
to NAIC rate stability guidelines. It is important that standard rate 
stability guidelines be applied universally across the long term care 
industry. While we understand there have been concerns about the 
program, we take our responsibility very seriously to serve the 
interests of enrollees by doing all we can to improve and to promote 
the continued success of the Program.
                            open government
    Question. In December 2009, the President issued an Open Government 
Directive to Federal agencies instructing them to launch open 
government web sites within 60 days, draft open government plans with 
long- term steps to improve transparency, and solicit public feedback 
on agencies' core mission activities. Please describe OPM's actions to 
fulfill the President's open government and transparency initiative.
    Answer. In response to the President's Open Government Directive, 
OPM has established an Open OPM governance structure that comprises the 
Executive Board, their respective representatives on the Core Team and 
Component Teams. The Teams will develop and implement actions to ensure 
accountability and the sustainability of transparency, participation, 
and collaboration at OPM. All Component Teams include OPM employees as 
well as members from public/nonprofit groups, other agencies, academia 
and unions. The Component Teams will gather information from the 
individual team members, exchange ideas and generate innovative options 
for solving problems. Those ideas and options will be forwarded to the 
Core Team (OPM employees) for analysis and to make recommendations to 
OPM leadership on the Executive Board.
    It is our policy to integrate Open Government into OPM's ongoing 
mission activities, including, but not limited to, partnering with 
stakeholders, advising and assisting agencies, working with Congress 
and other stakeholders on developing policies, promoting effective and 
efficient human resources policies and practices across government 
while leading by example. The Open Government ethos will be integrated 
into our programs and sustained throughout each of the aforementioned 
methods for improving Federal customer service life cycle, from hiring, 
employment, retirement to annuitant.
    The agency has created an Open OPM web site at http://www.opm.gov/
open/ for providing information on OPM's Open Government activities, 
including high-value data sets, the agency's Open Government Plan, and 
an Open OPM blog to provide updates and receive feedback from the 
public.
    Question. Have you received feedback from citizens? If so, can you 
summarize some of the responses OPM has received?
    Answer. We used the Open OPM Web site to solicit and receive public 
suggestions for our Open Government Plan. We have received and 
processed more than 1,000 e-mails from the public via our Open 
Government e-mail address and have received 58 unique ideas to improve 
Open Government through an IdeaScale Web tool. Feedback from the public 
focused primarily on the Agency's operations in recruitment, staffing, 
retirement, and benefits. The Director's goal ``Expect the Best'' was 
echoed in these comments, as was the Vision that ``The Federal 
Government will Become America's Model Employer for the 21st Century.'' 
The Open OPM team continues to receive and respond to feedback from 
citizens through the use of a new Searchable FAQs tool on OPM's 
website, the Open OPM email address, and the Open OPM Blog.

                          SUBCOMMITTEE RECESS

    Senator Durbin. The session stands recessed.
    [Whereupon, at 3:33 p.m., Wednesday, March 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
